i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(June 2, 2020) . . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion Incorporating
Findings of Fact and Conclusions of Law
(May 10, 2019) . . . . . . . . . . . . . . App. 69
Appendix C Judgment and Permanent Injunction
in the United States District Court
Western District of Kentucky
Louisville Division
(May 10, 2019) . . . . . . . . . . . . . App. 104
Appendix D Order in the United States Court of
Appeals for the Sixth Circuit
(June 24, 2020) . . . . . . . . . . . . . App. 106
Appendix E Order in the United States Court of
Appeals for the Sixth Circuit
(July 16, 2020) . . . . . . . . . . . . . App. 130
Appendix F Mandate in the United States Court of
Appeals for the Sixth Circuit
(August 3, 2020) . . . . . . . . . . . . App. 133
Appendix G Ky. Rev. Stat. 311.787 . . . . . . . App. 135

App. 1

APPENDIX A
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0169p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-5516
[Filed: June 2, 2020]
__________________________________________
EMW WOMEN’S SURGICAL CENTER, P.S.C.,
)
on behalf of itself, its staff, and its
)
patients; ASHLEE BERGIN, M.D., M.P.H.
)
and TANYA FRANKLIN, M.D., M.S.P.H.,
)
on behalf of themselves and their patients, )
)
Plaintiffs-Appellees,
)
)
v.
)
)
ERIC FRIEDLANDER, in his official capacity
)
as Acting Secretary of Kentucky’s Cabinet
)
for Health and Family Services,
)
)
Defendant-Appellant.
)
__________________________________________)
Appeal from the United States District Court
for the Western District of Kentucky at Louisville.

App. 2
No. 3:18-cv-00224—Joseph H. McKinley, Jr.,
District Judge.
Argued: January 29, 2020
Decided and Filed: June 2, 2020
Before: MERRITT, CLAY, and BUSH, Circuit
Judges.
_________________
COUNSEL
ARGUED: Matthew F. Kuhn, OFFICE OF THE
GOVERNOR, Frankfort, Kentucky, for Appellant.
Andrew D. Beck, AMERICAN CIVIL LIBERTIES
UNION OF NEW YORK, New York, New York, for
Appellees. ON BRIEF: Matthew F. Kuhn, M. Stephen
Pitt, S. Chad Meredith, Brett R. Nolan, OFFICE OF
THE GOVERNOR, Frankfort, Kentucky, for Appellant.
Andrew D. Beck, Alexa Kolbi-Molinas, Meagan M.
Burrow, Elizabeth Watson, AMERICAN CIVIL
LIBERTIES UNION OF NEW YORK, New York, New
York, Amy D. Cubbage, ACKERSON & YANN,
Louisville, Kentucky, Heather Lynn Gatnarek,
AMERICAN CIVIL LIBERTIES UNION OF
KENTUCKY, Louisville, Kentucky, for Appellees.
Benjamin M. Flowers, OFFICE OF THE OHIO
ATTORNEY GENERAL, Columbus, Ohio, Ester
Murdukhayeva, OFFICE OF THE NEW YORK
ATTORNEY GENERAL, New York, New York,
Alexandria Preece, MORRISON & FOERSTER LLP,
San Diego, California, Roxann E. Henry, MORRISON
& FOERSTER LLP, Washington, D.C., Kimberly A.
Parker, WILMER CUTLER PICKERING HALE AND
DORR LLP, Washington, D.C., for Amici Curiae.

App. 3
CLAY, J., delivered the opinion of the court in which
MERRITT, J., joined. BUSH, J. (pp. 33–43), delivered
a separate dissenting opinion.
_________________
OPINION
_________________
CLAY, Circuit Judge. This case asks whether a
state can require patients to undergo a procedure to
end potential fetal life before they may receive an
abortion performed through the method most common
in the second trimester of pregnancy—dilation and
evacuation. Kentucky House Bill 454 does just that.
Plaintiffs, Kentucky’s sole abortion clinic and two of its
doctors, argue that House Bill 454 violates patients’
constitutional right to abortion access prior to fetal
viability because the burdens the law imposes
significantly outweigh its benefits. Defendant Eric
Friedlander, the Acting Secretary of Kentucky’s
Cabinet for Health and Family Services, disagrees. He
contends that Kentucky may constitutionally require
patients to undergo such a procedure because it is a
reasonable alternative to the standard dilation and
evacuation abortion. The district court agreed with
Plaintiffs and permanently enjoined Kentucky from
enforcing House Bill 454.
For the reasons set forth below, we AFFIRM the
district court’s judgment.

App. 4
BACKGROUND
Factual Background
In the first trimester of pregnancy, a physician may
perform an abortion through two methods. She may
offer medication to induce a process like miscarriage, or
she may perform a surgical abortion, using suction to
remove the contents of the uterus intact. But these
methods are only effective in the initial weeks of
pregnancy. Starting around fifteen weeks of pregnancy,
measured from the time of the individual’s last
menstrual period (“LMP”), physicians must use the
dilation and evacuation (“D&E”) method. D&E is the
standard method used in the second trimester,
accounting for 95% of second-trimester abortions
performed nationwide. To perform a D&E, a physician
first dilates the patient’s cervix, and then uses
instruments and suction to remove the contents of the
uterus. At this stage of pregnancy, the fetus has grown
larger than the cervical opening, and so fetal tissue
separates as the physician draws it through that
narrow opening.
This leads us to Kentucky’s House Bill 454 (“H.B.
454” or “the Act”), which was signed into law on April
10, 2018. H.B. 454 provides, in relevant part:
No person shall intentionally perform or induce
or attempt to perform or induce an abortion on
a pregnant woman . . . [t]hat will result in the
bodily dismemberment, crushing, or human
vivisection of the unborn child . . . [w]hen the
probable post-fertilization age of the unborn
child is eleven (11) weeks or greater [(i.e.,

App. 5
thirteen (13) weeks or greater as measured since
the last menstrual period)]1. . . .
(H.B. 454, R. 43-1 at PageID #244.) “[B]odily
dismemberment, crushing, or human vivisection”
includes:
a procedure in which a person, with the purpose
of causing the death of an unborn child,
dismembers the living unborn child and extracts
portions, pieces, or limbs of the unborn child
from the uterus through the use of clamps,
grasping forceps, tongs, scissors, or a similar
instrument that . . . slices, crushes, or grasps . . .
any portion, piece, or limb of the unborn child’s
body to cut or separate the portion, piece, or
limb from the body.
(Id. at ##243–44.) While H.B. 454 does not use the
words “dilation and evacuation” or “D&E,” the parties
agree that it references the standard D&E. Because
fetal tissue separates as physicians remove it from the
uterus during the standard D&E, H.B. 454 forbids
D&E abortions when performed on “living unborn”
fetuses—or, in clinical terms, prior to “fetal demise.”
H.B. 454 does not identify any workaround for
physicians who seek to perform or patients who seek a
1

Like Plaintiffs, the Secretary, and the district court before us, we
identify the relevant stage of pregnancy based on the number of
weeks since the individual’s last menstrual period, or weeks
“LMP.” However, H.B. 454 identifies the stage of pregnancy based
on the number of weeks “post fertilization.” (H.B. 454, R. 43-1 at
PageID #244.) Eleven weeks post fertilization is equivalent to
thirteen weeks LMP.

App. 6
D&E after thirteen weeks. The Act does not suggest
that physicians should or must induce fetal demise
prior to performing a D&E. Specifically, it does not
discuss any procedures for inducing fetal demise.
H.B. 454 provides for a single exception to this
prohibition: physicians may perform a D&E prior to
fetal demise in a “medical emergency.” (Id. at #244.) A
“medical emergency” is a situation that a physician
deems to “so complicate[] the medical condition of a
pregnant female as to necessitate the immediate
abortion of her pregnancy to avert her death or for
which a delay will create a serious risk of substantial
and irreversible impairment of a major bodily
function.” (Id.); Ky. Rev. Stat. § 311.720(9).
Violation of H.B. 454 is a Class D felony, (H.B. 454,
R. 43-1 at PageID #247), for which providers may
receive up to five years of imprisonment, Ky. Rev. Stat.
§ 532.060(2)(d), and adverse licensing and disciplinary
action, id., §§ 311.565, 311.606.
Procedural Background
On the day H.B. 454 was signed, Plaintiffs EMW
Women’s Surgical Center (“EMW”) and its two
obstetrician-gynecologists, Dr. Ashlee Bergin and Dr.
Tanya Franklin, brought suit against various Kentucky
officials to challenge it. EMW is Kentucky’s only
licensed outpatient abortion facility, and Dr. Bergin
and Dr. Franklin are the only doctors providing
surgical abortions at EMW. Plaintiffs argued that H.B.
454 is facially unconstitutional because it effectively
bans the most common second-trimester abortion
procedure—the D&E—and therefore imposes an undue

App. 7
burden on the right to elect abortion prior to viability,
in violation of the Fourteenth Amendment. Plaintiffs
moved for a temporary restraining order and a
preliminary injunction shortly thereafter.
The parties entered a joint consent order, under
which the Commonwealth defendants agreed that they
would not take steps to enforce H.B. 454 until the
district court ruled upon Plaintiffs’ motions. The court
later ordered the parties to continue following the
terms of the consent order until the case was tried on
the merits.
Aside from then-Secretary of Kentucky’s Cabinet
for Health and Family Services, Adam Meier, and
Commonwealth Attorney Thomas B. Wine, all of the
defendants were voluntarily dismissed prior to trial.
The district court heard Plaintiffs’ case in a five-day
bench trial in November 2018.
Before the court, Plaintiffs presented their
argument as to H.B. 454’s unconstitutionality.
Defendants Meier and Wine, for their part, argued that
H.B. 454 did not ban D&E abortions, but simply
required individuals seeking a D&E abortion after
thirteen weeks to first undergo a procedure to induce
fetal demise. They identified three possible methods of
inducing fetal demise: by injecting digoxin into the
fetus or amniotic sac, by injecting potassium chloride
into the fetal heart, or by cutting the umbilical cord in
utero. Plaintiffs responded that none of these three
procedures was a feasible workaround to H.B. 454.
Both parties presented substantial expert testimony
and evidence about the safety, efficacy, and feasibility
of each of these procedures.

App. 8
On May 8, 2019, the district court entered judgment
for Plaintiffs and an order permanently enjoining the
enforcement of H.B. 454. EMW Women’s Surgical Ctr.,
P.S.C. v. Meier, 373 F. Supp. 3d 807, 826 (W.D. Ky.
2019). At bottom, the district court found that H.B. 454
imposed an undue burden on one’s right to elect an
abortion prior to viability, in violation of the
Fourteenth Amendment. Id. In particular, it concluded
that none of the three identified procedures was a
feasible option for inducing fetal demise and, therefore,
H.B. 454 effectively banned D&E abortions. Id. at 823.
This timely appeal followed. Former defendant
Commonwealth Attorney Wine did not join this appeal.
Due to the recent change in administration from prior
Kentucky Governor Matt Bevin to current Governor
Andy Beshear, now-Acting Secretary of Kentucky’s
Cabinet for Health and Family Services Eric
Friedlander (“the Secretary”) has replaced Adam Meier
as the named Defendant-Appellant in this case. See
Fed. R. Civ. P. 25(d) (“An action does not abate when a
public officer who is a party in an official capacity . . .
ceases to hold office while the action is pending. The
officer’s successor is automatically substituted as a
party.”).
DISCUSSION
Kentucky is not the first state to pass legislation
requiring fetal demise prior to the performance of a
D&E. At least ten other states have passed similar
laws. See, e.g., Ala. Code § 26-23G-1 et seq.; Ark. Code.
Ann. § 20-16-1801 et seq.; Ind. Code §§ 16-34-2-7(a),
16-18-2-96.4; Kan. Stat. Ann. § 65-6741 et seq.; Okla.
Stat. Ann. § 1-737.7 et seq.; La. Stat. Ann. § 1061.1.1 et

App. 9
seq.; Miss. Code Ann. § 41-41-151 et seq.; Ohio Rev.
Code § 2919.15(B); Tex. Health & Safety Code Ann.
§ 171.151 et seq.; W. Va. Code Ann. § 16-2O-1 et seq. In
nearly every state, plaintiffs have challenged those
laws as unduly burdening the right to elect abortion
before viability, as Plaintiffs have done here. And in
every challenge brought to date, the court has enjoined
the law, finding that it indeed unduly burdens that
right. See, e.g., W. Ala. Women’s Ctr. v. Williamson, 900
F.3d 1310, 1327, 1329–30 (11th Cir. 2018) (affirming
permanent injunction of Ala. Code § 26-23G-1 et seq.),
cert denied sub nom. Harris v. W. Ala. Women’s Ctr.,
139 S. Ct. 2606 (2019); Bernard v. Individual Members
of Ind. Med. Licensing Bd., 392 F. Supp. 3d 935, 962,
964 (S.D. Ind. 2019) (preliminarily enjoining Ind. Code
§§ 16-34-2-7(a), 16-18-2-96.4); Planned Parenthood of
Sw. Ohio Region v. Yost, 375 F. Supp. 3d 848, 869, 872
(S.D. Ohio 2019) (preliminarily enjoining Ohio Rev.
Code § 2919.15(B)); Whole Woman’s Health v. Paxton,
280 F. Supp. 3d 938, 953–54 (W.D. Tex. 2017)
(permanently enjoining Tex. Health & Safety Code
Ann. § 171.151 et seq.); Hopkins v. Jegley, 267 F. Supp.
3d 1024, 1064–65, 1111 (E.D. Ark. 2017) (preliminarily
enjoining Ark. Code. Ann. § 20-16-1801 et seq.); Hodes
& Nauser, MDs, P.A. v. Schmidt, 440 P.3d 461, 467–68,
504 (Kan. 2019) (affirming temporary injunction of
Kan. Stat. Ann. § 65-6741 et seq.); see also, e.g.,
Planned Parenthood of Cent. N.J. Farmer, 220 F.3d
127, 145–46, 152 (3d Cir. 2000) (affirming permanent
injunction of a partial-birth abortion ban, finding that
its fetal-demise workaround would constitute an undue
burden); Evans v. Kelley, 977 F. Supp. 1283, 1318–20
(E.D. Mich. 1997) (permanently enjoining a similar
law). The district court here reached the same

App. 10
conclusion. Meier, 373 F. Supp. 3d at 826. While these
cases do not dictate this Court’s decision, we find them
highly persuasive. See Glossip v. Gross, 135 S. Ct.
2726, 2740 (2015) (“Our review is even more deferential
where . . . multiple trial courts have reached the same
finding, and multiple appellate courts have affirmed
those findings.”); cf. Cooper v. Harris, 137 S. Ct. 1455,
1468 (2017) (“[A]ll else equal, a finding is more likely to
be plainly wrong if some judges disagree with it.”).
All this said, our duty is to assess the record in this
case and independently review the district court’s
decision to permanently enjoin H.B. 454. “A party is
entitled to a permanent injunction if it can establish
that it suffered a constitutional violation and will suffer
‘continuing irreparable injury’ for which there is no
adequate remedy at law.” Women’s Med. Prof’l Corp. v.
Baird, 438 F.3d 595, 602 (6th Cir. 2006) (quoting
Kallstrom v. City of Columbus, 136 F.3d 1055, 1067
(6th Cir. 1998)). When considering a district court’s
decision to grant a permanent injunction following a
bench trial, we apply three standards of review. We
review the scope of injunctive relief for an abuse of
discretion, the district court’s legal conclusions de novo,
and the court’s factual findings for clear error. Id.
In this and all cases, the clear error standard
presents a particularly high hurdle for the appellant to
overcome. The district court compiled a thorough
judicial record over the course of a five-day bench trial,
during which the parties presented a wealth of
testimonial and documentary evidence. In reviewing
the court’s factual findings based on that record, we
ask only if its “account of the evidence is plausible in

App. 11
light of the record viewed in its entirety.” Anderson v.
City of Bessemer City, 470 U.S. 564, 573–74 (1985). If
so, we must affirm the district court’s finding. We
consider a factual finding clearly erroneous only when
we are “left with the definite and firm conviction that
a mistake has been committed.” Id. at 573 (quoting
United States v. U.S. Gypsum Co., 333 U.S. 364, 395
(1948)). “Where there are two permissible views of the
evidence, the [district court’s] choice between them
cannot be clearly erroneous.” Id. at 574.
With this groundwork laid, we turn to the issues
presented on appeal.2
2

At the threshold, we address a point belabored by the dissent. In
the proceedings below, the Secretary cursorily argued that
Plaintiffs do not have standing to assert this challenge. The
district court rightly rejected this notion. Meier, 373 F. Supp. 3d at
813. The Secretary does not renew this argument on appeal, but
merely states that he “preserves his right to argue that EMW lacks
standing to prosecute this case on behalf of women seeking an
abortion.” (Def. Br. at 25, n.3.) Generally speaking, “a party does
not preserve an argument by saying in its opening brief (whether
through a footnote or not) that it may raise the issue later.”
United States v. Huntington Nat’l Bank, 574 F.3d 329, 331 (6th
Cir. 2009).
Nevertheless, the dissent makes the unsupportable assertion
that we are always required to sua sponte address prudential
third-party standing arguments, even when the parties do not
raise them. We are not convinced that the cases upon which the
dissent relies require us to do so. C.f. Craig v. Boren, 429 U.S. 190,
193–94 (1976) (holding that third-party standing is a prudential
issue, not a constitutional one). In any event, we need not answer
that question now because this case does not present any
third-party standing issue. (Perhaps this is also the reason the
Secretary does not press the issue on appeal.) As we recently
explained, physician plaintiffs “unquestionably have standing to

App. 12

sue on their own behalf” when a law threatens them with criminal
prosecution. Adams & Boyle, P.C. v. Slatery, 956 F.3d 913, 923
n.10 (6th Cir. 2020); see also, e.g., City of Akron v. Akron Ctr. for
Reprod. Health, Inc., 462 U.S. 416, 440 n.30 (1983), overruled on
other grounds by Planned Parenthood of Se. Pa. v. Casey, 505 U.S.
833 (1992); Planned Parenthood of Cent. Mo. v. Danforth, 428 U.S.
52, 62 (1976); Doe v. Bolton, 410 U.S. 179, 188 (1973). Even if
Plaintiffs were not directly regulated by H.B. 454 and only
asserted their patients’ rights, the Supreme Court has long since
determined that abortion providers have standing to do so. See
Singleton v. Wulff, 428 U.S. 106, 117 (1976). And it has found that
providers have standing even when their interests are arguably in
potential conflict with patients’—as when regulations assertedly
protect the health and safety of patients. See, e.g., City of Akron,
462 U.S. at 440 n.30; Danforth, 428 U.S. at 62; Doe v. Bolton, 410
U.S. at 188.
Casting aside this Supreme Court precedent, the dissent
proclaims that Plaintiffs do not have standing because their
interests potentially conflict with those of their patients. In so
concluding, the dissent wrongly assigns to itself the district court’s
due fact-finding role, without providing any justification for doing
so. Regardless, the supposed conflicts the dissent identifies do not
exist. The dissent misleadingly uses studies suggesting some
would prefer to undergo a fetal-demise procedure before receiving
a D&E. But this attacks a straw man. Plaintiffs do not argue that
individuals should not be permitted to undergo a fetal-demise
procedure if they desire to do so; instead, they argue that
individuals should not be compelled to undergo a fetal-demise
procedure whether or not they desire to. Even if some have an
interest in undergoing a fetal-demise procedure, this says nothing
about whether they have an interest in being compelled by
Kentucky to undergo a fetal-demise procedure. The dissent next
suggests, out of thin air, that Plaintiffs do not desire to acquire the
training necessary to perform digoxin injections. But the dissent
points to no evidence supporting this proposition, and it cannot
create a conflict through bare assertion. Thus, its arguments are
altogether without merit.

App. 13
I.
Nearly fifty years ago, the Supreme Court
declared that the Fourteenth Amendment protects an
individual’s right to elect to have an abortion. Roe v.
Wade, 410 U.S. 113, 153–54 (1973). Twenty years later,
in Planned Parenthood of Southeastern Pennsylvania
v. Casey, 505 U.S. 833, 846 (1992), the Court reaffirmed
what it identified as Roe’s essential holdings:
First is a recognition of the right of the woman
to choose to have an abortion before viability and
to obtain it without undue interference from the
State. Before viability, the State’s interests are
not strong enough to support a prohibition of
abortion or the imposition of a substantial
obstacle to the woman’s effective right to elect
the procedure. Second is a confirmation of the
State’s power to restrict abortions after fetal
viability, if the law contains exceptions for
pregnancies which endanger the woman’s life or
health. And third is the principle that the State
has legitimate interests from the outset of the
pregnancy in protecting the health of the woman
and the life of the fetus that may become a child.
Under this framework, “[r]egardless of whether
exceptions are made for particular circumstances, a
State may not prohibit any woman from making the
ultimate decision to terminate her pregnancy before
viability.” Id. at 879. On the other hand, “[r]egulations
which do no more than create a structural mechanism
by which the State . . . may express profound respect
for the life of the unborn are permitted, if they are not
a substantial obstacle to the woman’s exercise of the

App. 14
right to choose.” Id. at 877. According to the Secretary,
H.B. 454 serves the Commonwealth’s interests in
respecting the dignity of human life, preventing fetal
pain, and protecting the ethics, integrity, and
reputation of the medical community. Neither the
district court nor Plaintiffs questioned that the
Commonwealth indeed held these interests or that it
might justifiably regulate abortion to further them.
Neither do we. The Commonwealth “may use its voice
and its regulatory authority to show its profound
respect” for the dignity of human life. Gonzales v.
Carhart, 550 U.S. 124, 157 (2007). Preventing fetal
pain is part and parcel of this interest. Likewise, states
“ha[ve] an interest in protecting the integrity and
ethics of the medical profession.” Id. (quoting
Washington v. Glucksberg, 521 U.S. 702, 731 (1997)).
However, no Commonwealth interest may justify
“placing a substantial obstacle in the path of a woman
seeking an abortion” prior to viability. Casey, 505 U.S.
at 877. Such an obstacle would unduly burden the right
to choose prior to viability, in violation of the
Fourteenth Amendment. Gonzales, 550 U.S. at 146.
H.B. 454 applies to abortions beginning at thirteen
weeks LMP, well before the point of viability. The
question before this Court, then, is whether H.B. 454
imposes an undue burden. As explained by the
Supreme Court in Whole Woman’s Health v.
Hellerstedt, 136 S. Ct. 2292, 2309 (2016), we answer
this question by weighing “the burdens a law imposes
on abortion access together with the benefits those laws
confer.”

App. 15
This is where the Commonwealth’s problems begin.
The Secretary takes issue with the district court’s
application of this test. He asserts that there are
multiple ways to apply the undue burden analysis, and
“Hellerstedt does not apply here because its balancing
test arose in the context of a law that a state claimed
protected women’s health.” (Def. Br. at 28 (citing
Hellerstedt, 136 S. Ct. at 2310).) Because the
Commonwealth interests behind H.B. 454 are
purportedly more “intangible,” the Secretary says, it is
the legislature’s place—and not the courts’—to assess
whether the Commonwealth’s interest justifies
regulating abortion. The Secretary suggests that
Gonzales articulated a separate test that applies where
a state acts to express respect for human life—that is,
“the State may use its regulatory power to bar certain
procedures and substitute others,” so long as the
alternative procedures do not impose an undue burden
in the form of “significant health risks.” (Id. at 26–27
(emphasis omitted) (quoting Gonzales, 550 U.S. at 158,
161).)
Like other courts presented with this argument, we
find it unpersuasive. See, e.g., Planned Parenthood of
Ind. & Ky. v. Comm’r of Ind. State Dep’t of Health, 896
F.3d 809, 817 (7th Cir. 2018) (“The State is incorrect
that the standard for evaluating abortion regulations
differs depending on the State’s asserted interest or
that there are even two different tests . . . .”); Hopkins,
267 F. Supp. 3d at 1055 (rejecting argument that “the
Supreme Court has created two distinct undue burden
tests, depending on what interests the state seeks to
regulate”). In Hellerstedt, the Supreme Court inferred
that the state had legislated in the interest of

App. 16
protecting women’s health. 136 S. Ct. at 2310. Yet the
Court did not distinguish that case from Gonzales
based on the state’s interest; in fact, it cited Gonzales’s
analysis. See id. at 2309–10 (citing Gonzales, 550 U.S.
at 165–66). The Hellerstedt Court explained that it
simply applied “[t]he rule announced in Casey, . . .
[which] requires that courts consider the burdens a law
imposes on abortion access together with the benefits
those laws confer.” Id. at 2309. In Gonzales, the Court
also explained that “Casey, in short, struck a balance,”
and it simply “applied [Casey’s] standards to the cases
at bar.” Gonzales, 550 U.S. at 146. Casey itself did not
suggest that any separate test applied to regulations
based on an interest in the dignity of human life;
instead, it presented the “woman’s right to terminate
her pregnancy before viability” and “the interest of the
State in the protection of potential life” as two sides of
an equation. Casey, 505 U.S. at 871. Nor have other
lower courts understood there to be two different
analyses. Courts regularly apply the undue burden
analysis, as articulated in Hellerstedt, to regulations
passed in the interest of protecting the dignity of
human life. See, e.g., Planned Parenthood of Ind. & Ky.,
Inc. v. Adams, 937 F.3d 973, 983–84 (7th Cir. 2019);
J.D. v. Azar, 925 F.3d 1291, 1328, 1333, 1335 (D.C. Cir.
2019); Williamson, 900 F.3d at 1326–27; Planned
Parenthood of Ind. & Ky. v. Comm’r of Ind. State Dep’t
of Health, 896 F.3d at 824–25, 831.
The Secretary also relies upon Gonzales to assert
that there is “medical uncertainty over whether [H.B.
454’ s] prohibition creates significant health risks,” and
that legislatures have “wide discretion to pass
legislation in areas where there is medical and

App. 17
scientific uncertainty.” (Def. Br. at 27 (quoting
Gonzales, 550 U.S. at 163–64).) But Hellerstedt
addressed this very argument. See 136 S. Ct. at 2310.
It explained that “[t]he statement that legislatures, and
not courts, must resolve questions of medical
uncertainty is . . . inconsistent with this Court’s case
law.” Id. It clarified that while Gonzales suggested that
courts must apply deferential review to legislative fact
findings, that deference should not be “[u]ncritical” and
courts “must not ‘place dispositive weight’ on those
‘findings.’” Id. (alteration in original) (quoting
Gonzales, 550 U.S. at 165–66); see also Adams & Boyle,
P.C. v. Slatery, 956 F.3d 913, 926 (6th Cir. 2020). In the
case of H.B. 454, the legislature made no findings of
fact addressing the medical safety of the Secretary’s
suggested procedures; in fact, H.B. 454 does not
acknowledge these procedures at all. Thus, there are no
legislative findings of fact to which this Court could
even defer. As discussed below, the district court
appropriately considered the medical evidence
surrounding H.B. 454’s safety and found that it
presented impermissible, unduly burdensome risks to
those seeking a D&E prior to viability.
Setting aside the Secretary’s argument, then, we
must apply the undue burden analysis, as explained in
Hellerstedt.3 We therefore turn to consider the district
3

Although we decline to apply the purportedly separate test the
Secretary suggests, we note that H.B. 454 would fail that test, too.
The Secretary suggests that a law “imposes an undue burden only
when the regulation creates a substantial obstacle to previability
abortion by ‘creat[ing] significant health risks’ for women.” (Def.
Reply Br. at 10–11 (quoting Gonzales v. Carhart, 550 U.S. 124, 162
(2007)).) For the reasons explained later in this opinion, the

App. 18
court’s assessment of the burdens H.B. 454 imposes.
A. Burdens
An undue burden exists if a statute’s “purpose or
effect is to place a substantial obstacle in the path of a
woman seeking an abortion before the fetus attains
viability.” Casey, 505 U.S. at 878. The Supreme Court
has repeatedly affirmed that laws that amount to a
prohibition of the most common second-trimester
abortion method impose such a burden. See, e.g.,
Stenberg v. Carhart, 530 U.S. 914, 930, 938–39 (2000)
(finding that a Nebraska statute effectively prohibiting
D&E abortions constituted an undue burden); Planned
Parenthood of Cent. Mo. v. Danforth, 428 U.S. 52,
78–79 (1976) (striking down a ban on saline
amniocentesis, then the method “most commonly used
nationally . . . after the first trimester”); see also
Gonzales, 550 U.S. at 150–54, 164–65 (contrasting a
permissible law prohibiting only dilation and extraction
(“D&X”) abortions,4 and not standard D&E, with the
unconstitutional law at issue in Stenberg). This Court
has duly applied those holdings, explaining simply that
“if a statute prohibits pre-viability D & E procedures,
it is unconstitutional.” Northland Family Planning,
district court did not err in finding that H.B. 454 creates
significant health risks by compelling individuals to undergo
fetal-demise procedures.
4

In a D&X procedure, a physician dilates a patient’s cervix to
allow the fetus to partially pass through. Women’s Med. Prof’l
Corp. v. Taft, 353 F.3d 436, 440 (6th Cir. 2003). When the fetus
emerges past the cervix, the physician uses tools to access and
remove the contents of the fetal skull, before removing the rest of
the fetal body from the patient. Id.

App. 19
Inc. v. Cox, 487 F.3d 323, 330 (6th Cir. 2007); accord
Eubanks v. Stengel, 224 F.3d 576, 577 (6th Cir. 2000);
Women’s Med. Prof’l Corp. v. Voinovich, 130 F.3d 187,
201 (6th Cir. 1997) (“Because the definition of the
banned procedure includes the D & E procedure, the
most common method of abortion in the second
trimester, the Act’s prohibition on the D & X procedure
has the effect ‘of placing a substantial obstacle in the
path of a woman seeking an abortion of a nonviable
fetus.’” (quoting Casey, 505 U.S. at 877)). If H.B. 454
effectively prohibits the D&E procedure, then, it poses
a substantial obstacle to abortion access prior to
viability and is an undue burden.
H.B. 454 criminalizes a physician’s performance of
a standard D&E abortion unless fetal demise occurs
before the fetus is removed from the uterus. The
Secretary argues that H.B. 454 does not ban D&Es
because physicians may lawfully administer D&Es if
they first induce fetal demise through one of three
methods: digoxin injection, potassium chloride
injection, or umbilical cord transection. The Secretary
asserts that the Commonwealth may constitutionally
require individuals to undergo these procedures
because they are “reasonable alternative[s]” to a
standard D&E. (Def. Br. at 27, 33 (citing Gonzales, 550
U.S. at 163).)
Before considering the feasibility of each of these
procedures, we pause to note a fundamental flaw in the
Secretary’s argument. Fetal-demise procedures are not,
by definition, alternative procedures. A patient who
undergoes a fetal-demise procedure must still undergo
the entirety of a standard D&E. Instead, fetal-demise

App. 20
procedures are additional procedures. Additional
procedures, by nature, expose patients to additional
risks and burdens. No party argues that these
procedures are necessary or provide any medical
benefit to the patient. The district court’s findings
suggest that these procedures impose only additional
medical risks. Thus, we consider them inherently
suspect. See, e.g., Adams & Boyle, 956 F.3d at 926
(concluding that applications of a temporary ban on
abortions during the COVID-19 pandemic that “would
require [a woman] to undergo a more invasive and
costlier procedure tha[n] she otherwise would have . . .
constitutes ‘beyond question, a plain, palpable invasion
of rights secured by [the] fundamental law’” (quoting
Jacobson v. Massachusetts, 197 U.S. 11, 31 (1905)));
Paxton, 280 F. Supp. 3d at 948 (“Although the court
will consider the argument [that physicians may induce
fetal demise through one of the proposed methods], the
State’s reliance on adding an additional step to an
otherwise safe and commonly used procedure in and of
itself leads the court to the conclusion that the State
has erected an undue burden on a woman’s right to
terminate her pregnancy prior to fetal viability.”); id. at
953 (similar); see also, e.g., Danforth, 428 U.S. at 78–79
(striking down Missouri’s ban on saline amniocentesis
because it “forces a woman and her physician to
terminate her pregnancy by methods more dangerous
to her health than the method outlawed”); Williamson,
900 F.3d at 1326 (similar); Farmer, 220 F.3d at 145
(similar); Planned Parenthood of Cent. N.J. v. Verniero,
41 F. Supp. 2d 478, 500 (D.N.J. 1998) (similar), aff’d
sub nom. Farmer, 220 F.3d 127; Evans, 977 F. Supp. at
1318 (similar). In essence, H.B. 454 conditions an
individual’s right to choose on her willingness to

App. 21
submit herself to an additional painful, risky, and
invasive procedure. At some point, that requirement
itself becomes so onerous that it would substantially
deter individuals from seeking an abortion. This is
surely an undue burden.
Our consideration of the Secretary’s proposed
means of inducing fetal demise only solidifies this
conclusion. The district court correctly found that none
of these methods is a feasible workaround to H.B. 454.
We address each method in turn.
1. Digoxin Injections
The first fetal-demise method the Secretary
identifies is digoxin injections. As the district court
explained, “[t]o inject digoxin, physicians begin by
using an ultrasound machine to visualize the woman’s
uterus and the fetus. The physician then inserts a long
surgical needle through the patient’s skin, abdomen,
and uterine muscle, to inject digoxin into the fetus” or
the amniotic fluid. Meier, 373 F. Supp. 3d at 818.
Because digoxin can take up to twenty-four hours to
work, physicians generally must administer this
injection the day before performing a D&E. Id. at
818–19.
The district court found that digoxin injections were
not a feasible method for inducing fetal demise for five
reasons. First, with between a 5% and 20% failure rate,
digoxin injections do not reliably induce fetal demise
and so patients may require a second injection, the
effects of which have not been studied. Id. at 818.
Second, digoxin injections are also insufficiently
studied when administered before eighteen weeks

App. 22
LMP, and would therefore essentially be experimental
for the approximately 50% of patients who would
receive injections before this point. Id. Third, various
factors make it difficult or impossible for many patients
to receive a digoxin injection prior to a D&E. Id.
Fourth, digoxin injections expose patients to
substantial added health risks. Id. Finally, digoxin
injections subject patients to additional logistical and
emotional burdens by requiring them to undergo a
risky and invasive procedure and by requiring them to
invest resources in making a visit to their physician to
have the injection twenty-four hours before receiving a
D&E. Id. at 818–19. 5
Much of the Secretary’s argument pertaining to
digoxin injections amounts to an attempt to relitigate
5

The district court found that digoxin injections are generally “not
terribly difficult to perform,” but that they “still [are] not a
feasible option for fetal-demise” for the five reasons indicated.
Meier, 373 F. Supp. 3d at 818. Yet the dissent repeatedly asserts
that the problem is simply that Plaintiffs do not desire to receive
the training necessary to give the injections. This assertion has no
grounding in the facts as the district court found them, and, as
previously discussed, the dissent provides no support for it. In any
event, the possibility that Plaintiffs could be trained to perform
digoxin injections is irrelevant if digoxin injections are not
otherwise a feasible workaround to H.B. 454. The evidence pointed
to by the dissent provides no reason to question the district court’s
conclusion that they are not. As detailed above, each of the factual
findings relating to digoxin injection’s feasibility was a permissible
view of the evidence. See Anderson, 470 U.S. at 574. Apparently
recognizing this, the dissent does not suggest that any of the
court’s findings were clearly erroneous. Instead, it simply asserts
the facts as it sees them. But it is not our role to find facts,
particularly in the absence of evidence, when we have no basis to
reverse the district court’s permissible findings. See id.

App. 23
factual issues. He contends that digoxin injections do
not fail as frequently as the district court found, that
receiving multiple injections is safe, that receiving
injections before eighteen weeks is safe, and that some
of the risks identified by the district court are minimal
or theoretical. In essence, the Secretary takes issue
with the district court’s decision to credit Plaintiffs’
experts and cited studies over his own.
The Secretary’s strategy is misguided. Even if we
were inclined to disagree with the district court’s
factual findings, we may not reverse those findings
merely because we are “convinced that had [we] been
sitting as the trier[s] of fact, [we] would have weighed
the evidence differently.” Anderson, 470 U.S. at
573–74. As a federal appellate court, “we must let
district courts do what district courts do best—make
factual findings—and steel ourselves to respect what
they find.” Taglieri v. Monasky, 907 F.3d 404, 408 (6th
Cir. 2018). In reviewing a grant of permanent
injunction following a bench trial, we ask simply
whether the district court’s view of the evidence was
permissible. Anderson, 470 U.S. at 574.
The record supports each of the district court’s
factual findings. Expert testimony presented at trial,
supported by medical studies, suggested that digoxin
injections fail between 5% and 20% of the time.6 (Tr.
6

The Secretary also argues that even a 20% failure rate does not
make H.B. 454 facially invalid because this does not constitute an
undue burden on the requisite large fraction of individuals for
whom the restrictions are relevant. As this argument goes to the
appropriateness of facial relief, we address it in considering what
relief Plaintiffs are due. But at this juncture, it is worth noting

App. 24
Vol. I, R. 106 at PageID #4391; Tr. Vol. II, R. 107 at
PageID ##4675–76; Tr. Vol. IV, R. 103 at PageID
#3911.) We cannot override the district court’s decision
not to credit competing evidence that suggested the
lower bound of this failure rate is 2%, (e.g., Tr. Vol. I,
R. 106 at Page ID #4391; Tr. Vol. III-B, R. 102 at
PageID ##3737, 3743), and we would not be compelled
to conclude that digoxin injections are feasible even if
we could. As a legal matter, the Secretary also contends
that Plaintiffs should be bound by the statement in
their complaint that digoxin fails between 5% and 10%
of the time. But “[i]n order to qualify as [a] judicial
admission[], an attorney’s statement must be
deliberate, clear and unambiguous.” MacDonald v.
Gen. Motors Corp., 110 F.3d 337, 340 (6th Cir. 1997).
The complaint’s statement that “digoxin simply fails to
cause demise in approximately 5–10% of cases,”
(Compl., R. 1 at PageID #8 (emphasis added)), leaves
ample room for Plaintiffs to show that the failure rate
is higher.
Likewise, evidence supports the district court’s
conclusion that performing successive digoxin
injections would amount to an experimental medical
procedure, because no medical literature identifies the
correct dose for or the risks of a second digoxin
injection. (See, e.g., Tr. Vol. I, R. 106 at PageID
##4395–96; Tr. Vol. II, R. 107 at PageID #4678; Tr. Vol.

that digoxin injections’ failure rate is not the only thing that
makes them an infeasible workaround to H.B. 454. Thus, we need
not consider whether this failure rate, standing alone, would be
sufficient to suggest that H.B. 454 unduly burdens a large fraction
of the population it restricts.

App. 25
III-B, R. 102 at PageID #3792.) The court’s conclusion
regarding the use of digoxin injections before eighteen
weeks LMP is also well grounded: according to witness
testimony, no studies have been performed on the
efficacy, dosage, or safety of digoxin injections before
seventeen weeks, and just one study includes a few
individuals at seventeen weeks’ pregnancy. (Tr. Vol. I,
R. 106 at PageID ##4396–97; Tr. Vol. IV, R. 103 at
PageID ##3984–85.)
The court’s conclusion that digoxin injections are
not available to many patients also is not clearly
erroneous. Multiple experts testified that factors
including placental positioning, fetal positioning,
obesity, the presence of uterine fibroids, and the
presence of cesarean-section scars can interfere with or
prevent the successful administration of a digoxin
injection. (Tr. Vol. I, R. 106 at PageID ##4387–88; Tr.
Vol. III-B, R. 102 at PageID ##3793–94; Tr. Vol. IV, R.
103 at PageID ##4000–01.) Moreover, expert testimony
and studies suggested that patient contraindications—
including multiple gestations, fetal abnormalities,
digoxin or cardiac glycoside sensitivities and allergies,
cardiac abnormalities, renal failure, bleeding disorders,
and use of certain medications—may prevent the safe
administration of a digoxin injection. (Tr. Vol. I, R. 106
at PageID ##4388–90.) Despite the Secretary and the
dissent’s assertions otherwise, the district court’s
finding that digoxin injections are not generally
technically difficult to perform does not remotely
conflict with its conclusion that they cannot
successfully be performed on all patients or that they
are technically difficult to perform in some situations.
In the event that an individual cannot receive a digoxin

App. 26
injection for any of these reasons, H.B. 454 could
prevent her from receiving a D&E. There is no
exception to H.B. 454’s restrictions for those who
cannot undergo one of the proposed fetal-demise
procedures.7
While the district court’s opinion did not include
specific record citations to support its conclusion that
that digoxin injections subject patients to additional
health risks, Meier, 373 F. Supp. 3d at 818, this too is
supported by the evidence. Expert testimony
suggested that digoxin injections may increase
patients’ risk of vomiting, infection, bowel or intestinal
rupture, sepsis, and general hospitalization. (Tr. Vol. I,
R. 106 at PageID ##4400–06; Brady Dep., R. 112-1 at
PageID #5242.) Digoxin injections can also lead to
extramural delivery, meaning delivery outside a clinic
environment, which further increases medical risks
(including the risk of hemorrhaging) and may also be
painful and emotionally traumatic. (Tr. Vol. I, R. 106 at
PageID ##4405–09; Brady Dep., R. 112-1 at PageID
#5242.)

7

The only exception to H.B. 454’s prohibition is for instances of
“medical emergency.” (H.B. 454, R. 43-1 at PageID #244.) The
unavailability of a digoxin injection generally does not “so
complicate[] the medical condition of a pregnant female as to
necessitate the immediate abortion of her pregnancy to avert her
death or for which a delay will create a serious risk of substantial
and irreversible impairment of a major bodily function.” (Id.); Ky.
Rev. Stat. § 311.720(9). On appeal, the Secretary does not argue
that this medical exception covers any of the situations in which
a fetal-demise procedure would be unavailable.

App. 27
The Secretary says that these negative effects
rarely occur and dismisses them as “marginal or
insignificant risks generalized to the entire population
of women seeking . . . abortions [at the relevant time].”
(Def. Br. at 35 (alterations in original) (quoting
Women’s Med. Prof’l Corp. v. Taft, 353 F.3d 436, 447
(6th Cir. 2003)).)8 The Secretary draws this language
8

In his reply brief, the Secretary contends for the first time that
whether the three fetal-demise procedures pose significant risks is
a constitutional fact subject to de novo review. A constitutional fact
is one “upon which the enforcement of the constitutional rights of
the citizen depend.” Crowell v. Benson, 285 U.S. 22, 56 (1932); see
also Henry Paul Monaghan, Constitutional Fact Review, 85 Colum.
L. Rev. 229, 230, 254–55 (1985) (describing constitutional fact
review as “judicial review of the adjudicative facts decisive of
constitutional claims” and summarizing Crowell).
To be sure, this Court has explained, in the context of abortion
cases, that “an appellate court is to conduct an independent review
of the record when constitutional facts are at issue.” Voinovich, 130
F.3d at 192; see also Women’s Med. Prof’l Corp. v. Taft, 353 F.3d at
442. But we have not clarified what that “independent review”
means, nor have we identified any constitutional facts to which we
apply that independent review. See, e.g., Voinovich, 130 F.3d at
192; Women’s Med. Prof’l Corp. v. Taft, 353 F.3d at 442. In both of
the cases the Secretary cites to support his argument, the Court
reviewed legal questions pertaining to statutory construction,
including how a health exception in a statute regulating abortion
should be interpreted. Voinovich, 130 F.3d at 208–10; Women’s
Med. Prof’l Corp. v. Taft, 353 F.3d at 443–51. This Court did not
hold in either case that the existence of a significant health risk is
a constitutional fact. The Secretary’s argument turns on his
assertion that a law “imposes an undue burden only when the
regulation creates a substantial obstacle to previability abortion by
‘creat[ing] significant health risks’ for women,” implying that the
undue burden analysis turns exclusively on whether a law
presents significant health risks. (Def. Reply Br. at 10–11 (quoting
Gonzales v. Carhart, 550 U.S. 124, 162 (2007)).) Of course, in

App. 28
from Women’s Medical Professional Corp. v. Taft, in
which this Court considered whether a state could
forbid D&X abortions if the statute doing so provided
for a health exception. 353 F.3d at 446–47. Noting that
Supreme Court precedent required exceptions for
“when the procedure is necessary to prevent a
significant health risk,” this Court concluded that the
Supreme Court did not intend to require medical
exceptions to include “marginal or insignificant risks
generalized to the entire population of women seeking
late second-trimester abortions.” Id. We found it
significant that the law in question “specifically
exclude[d]” D&Es from its restrictions, as D&Es
provided a safe alternative to the D&X procedure. Id.
at 438, 451–53. As the Supreme Court later explained,
in comparing D&X and D&E abortions, there was
substantial medical uncertainty “over whether the
barred procedure [i.e., D&X] is ever necessary to
preserve a woman’s health, given the availability of
other abortion procedures that are considered to be safe
alternatives [i.e., D&E].” Gonzales, 550 U.S. at 166–67.
By contrast, under H.B. 454, an individual is left
with no safe alternative to undergoing a fetal-demise
procedure, and the record shows, with no medical

balancing the benefits and burdens H.B. 454 imposes, we consider
more than just health risks alone.
We consider the question of whether a procedure poses a
significant health risk a mixed question of fact and law. What risks
a procedure poses is a question of fact, and whether those risks are
significant is a question of law. Accordingly, we apply clear error
review to the former question and de novo review to the latter
question.

App. 29
uncertainty, that a D&E without a fetal-demise
procedure may be necessary to preserve an individual’s
health. Indeed, in every circumstance, a fetal-demise
procedure poses additional health risks beyond those
present with a D&E alone, and so it always places an
individual’s health in jeopardy. Accordingly, every
court to consider the question has found that digoxin
injections pose impermissible, significant risks to those
who would be compelled to undergo them. See, e.g.,
Williamson, 900 F.3d at 1323–24, 1327; Bernard, 392
F. Supp. 3d at 949, 960; Yost, 375 F. Supp. 3d at 858;
Paxton, 280 F. Supp. 3d at 949; Hopkins, 267 F. Supp.
3d at 1039, 1060–61; Evans, 977 F. Supp. at 1301,
1318; Schmidt, 368 P.3d at 678; see also Farmer, 220
F.3d at 145–46 (discussing digitalis, another cardiac
glycoside); Verniero, 41 F. Supp. 2d at 500 (same), aff’d
sub nom. Farmer, 220 F.3d 127; accord Meier, 373 F.
Supp. 3d at 818. We agree.
Finally, the district court found that digoxin
injections impose additional logistical and emotional
burdens on patients because they may increase the
length of the D&E procedure by a day and because they
require patients to undergo an additional invasive,
painful, and likely scary procedure. Meier, 373 F. Supp
3d at 818–19. The Secretary’s argument that D&E
procedures regularly take two days anyway is
unavailing; even if he is correct, the record suggests
that an additional day may be required for some
patients to undergo a digoxin injection. (See Tr. Vol. I,
R. 106 at PageID ##4396, 4432; Tr. Vol. II, R. 107 at
PageID #4768.)

App. 30
In sum, we see no error in the district court’s
analysis of the feasibility of using digoxin injections to
induce fetal demise prior to a D&E. Digoxin injection is
an unreliable procedure that may not effectively
cause fetal demise, presents unknown risks when
administered multiple times or before eighteen weeks,
may not be administrable at all based on the patient’s
health history and characteristics, increases medical
risks under any circumstance, and creates additional
emotional and logistical challenges for patients. Based
on these findings of fact, digoxin injections are not a
safe or effective workaround to H.B. 454.
2. Potassium Chloride Injections
As a second possibility, the Secretary suggests that
an abortion provider may induce fetal demise by
injecting potassium chloride into the fetus or the fetal
heart. As described by the district court, physicians
using this method “begin by using an ultrasound
machine to visualize the patient’s uterus and fetus. The
physician then inserts a long surgical needle through
the woman’s skin, abdomen, and uterine muscle, and
then into either the fetus or, more specifically, the fetal
heart.” Meier, 373 F. Supp. 3d at 819. At this stage, the
fetal heart is approximately the size of a dime. Id. If
injected into the fetal heart, potassium chloride causes
fetal demise almost immediately. Id. The physician
may then perform a standard D&E.
The district court found that potassium chloride
injections were not a feasible method for inducing fetal
demise for three reasons. First, potassium chloride
injections cannot be completed on every individual
seeking a D&E. Id. at 820. Second, they subject

App. 31
patients to serious health risks. Id. Third, potassium
chloride injections are extremely challenging and
require substantial technical training to perform—
training that the physician Plaintiffs do not have and
cannot easily acquire. Id. at 819–20.
In contesting the district court’s first finding, the
Secretary again quibbles with the district court’s
decision to credit Plaintiffs’ expert testimony over his
own. But ample evidence grounded the district court’s
conclusion that potassium chloride injections would not
be successful for many seeking a D&E—because of
factors including obesity, fetal and uterine position,
cesarean-section or other scar tissue, and uterine
fibroids—in addition to the procedure’s independent
possibility of failure. (Tr. Vol. I, R. 106 at PageID
##4423, 4551–52; Tr. Vol. IV, R. 103 at PageID ##3966,
4187–89.)
With regard to the district court’s second finding,
the Secretary does not dispute that potassium chloride
injections pose health risks to patients. And the record
clearly suggested that potassium chloride injections
increased patients’ risks of infection, bleeding,
cramping, uterine or bowel perforation, uterine atony
and hemorrhaging, and cardiac arrest. (See, e.g., Tr.
Vol. I, R. 106 at PageID ##4423–24, 4561–62; Tr. Vol .
III-B, R. 102 at PageID ##3802–06; Tr. Vol. IV, R. 103
at PageID ##4198–99.) The Secretary does contest the
significance of these risks, but this argument fails for
the same reasons it failed previously. H.B. 454 cannot
be said to impose only marginal or insignificant risks
because no safe alternative exists and because it
requires every individual seeking a D&E abortion to

App. 32
expose themselves to these risks. Again, every court to
consider whether potassium chloride injections present
substantial risk has agreed that they do. Williamson,
900 F.3d at 1322, 1324, 1327; Farmer, 220 F.3d at
145–46; Bernard, 392 F. Supp. 3d at 950–51, 960; Yost,
375 F. Supp. 3d at 860, 868; Paxton, 280 F. Supp. 3d at
950–51; Hopkins, 267 F. Supp. 3d at 1040, 1062–63;
Verniero, 41 F. Supp. 2d at 500, aff’d sub nom. Farmer,
220 F.3d 127; Evans, 977 F. Supp. at 1301, 1318;
accord Meier, 373 F. Supp. 3d at 820.
Regarding the district court’s finding that
potassium chloride injections require technical skill
and training that is not available to Plaintiffs, the
Secretary argues that this is no issue. Even if the
physician Plaintiffs themselves do not have and cannot
acquire the requisite training, the Secretary says,
EMW can simply hire physicians who do. According to
the Secretary, because EMW has not attempted to hire
such physicians, Plaintiffs themselves have caused this
obstacle to abortion access, not H.B. 454.
This argument misses the point. Whether Plaintiffs
could find some way to provide potassium chloride
injections is only relevant if those injections otherwise
present a feasible workaround to H.B. 454. They do
not. Potassium chloride injections cannot be performed
on many patients and present substantial added health
risks even when they can be. It would be irrational to
require Plaintiffs to go to the effort and expense of
attempting to hire other physicians in order to prove
that they cannot make a dangerous and potentially
ineffective procedure available to their patients. The
burden here is undoubtedly caused by H.B. 454.

App. 33
But even setting this analysis aside, the Secretary’s
argument also fails for other reasons. First, neither
Supreme Court precedent nor this Court’s precedent
requires Plaintiffs to prove that EMW could not have
hired physicians with the skills and training necessary
to perform potassium chloride injections. For this
proposition, the Secretary cites Gonzales, noting that
physicians need not have “unfettered choice” in what
abortion procedures they may use and that regulations
may require them to perform procedures that are
“standard medical options.” (Def. Br. at 20 (quoting
Gonzales, 550 U.S. at 163, 166).) But the point of the
district court’s findings is that potassium chloride
injection is not a standard medical option, and
Plaintiffs could not provide that procedure even if they
would so choose, because they have no available avenue
to develop the necessary skills. We agree.
The Secretary cites to June Medical Services L.L.C.
v. Gee, 905 F.3d 787 (5th Cir. 2015), cert. granted, 140
S. Ct. 35 (2019), to support his argument. In that case,
the Fifth Circuit upheld a Louisiana law requiring
abortion providers to gain admitting privileges at a
nearby hospital. The court found that the plaintiff
physicians had failed to show that the law presented an
undue burden because they had not applied for
admitting privileges or otherwise shown that had they
“put forth a good-faith effort to comply with [the law],
they would have been unable to obtain privileges.” Id.
at 807. Because the plaintiffs failed to make this
showing, the Fifth Circuit concluded that “[t]heir
inaction severs the chain of causation.” Id. But see id.
at 830 (Higginbotham, J., dissenting) (explaining that
Hellerstedt “did not require proof that every abortion

App. 34
provider . . . put in a good-faith effort to get privileges
and had been unable to do so”). The Fifth Circuit thus
took issue not with the plaintiffs’ failure to attempt to
hire or replace themselves with other physicians who
had admitting privileges, but with their failure to show
that they could not have obtained admitting privileges
had they tried. See id. at 807. In the case at bar, the
district court found that Plaintiffs “have no practical
way to learn how to perform this procedure safely,” due
to “the length of time it would take to learn the
procedure and the lack of training available within the
Commonwealth.” Meier, 373 F. Supp. 3d at 820. The
Secretary does not dispute this finding, and the record
supports it. (See, e.g., Tr. Vol. I, R. 106 at PageID
##4573–74; Tr. Vol. II, R. 107 at PageID ##4732–33; Tr.
Vol. IV, R. 103 at PageID ##4185–86.) Thus, plaintiffs
succeed even under the heightened showing required
by the Fifth Circuit in Gee.
Still, Supreme Court precedent does not support
such a requirement. Nor does Sixth Circuit precedent.
Notably, the Supreme Court granted a stay of the Fifth
Circuit’s decision, Gee, 139 S. Ct. 663 (2019) (mem.),
and the Court does not stay a decision absent a
“significant possibility that the judgment below will be
reversed,” Philip Morris U.S.A. Inc. v. Scott, 561 U.S.
1301, 1302 (2010). Far from requiring plaintiffs to
specifically and affirmatively show good-faith efforts to
comply with a challenged law, Supreme Court
precedent suggests that plaintiffs may demonstrate an
undue burden “by presenting direct testimony as well
as plausible inferences to be drawn” from the evidence,
Hellerstedt, 136 S. Ct. at 2313, including the inference
that any good-faith efforts would fail to alleviate the

App. 35
burden. Common sense suggests that when only a
small subset of physicians have undergone the
extensive training required to perform a procedure, it
would be difficult to impossible for an abortion clinic to
recruit one of those physicians. Still, the relevant
question in abortion cases is not whether it would
unduly burden a provider to comply with a law, but
whether compliance would unduly burden their
patients’ right to elect abortion prior to viability. And
it is even clearer that should Kentucky require a
procedure that only a small subset of physicians can
administer—in comparison to the large number who
can administer a D&E—it would restrict the number of
D&Es that could be provided in Kentucky, thereby
burdening those seeking a D&E.
Altogether, the district court’s well-supported
findings suggest that if patients were required to
undergo a potassium chloride injection prior to a D&E,
they would be subjected to a medically risky and
unreliable procedure, which they may not be able to
receive successfully and to which they would have only
limited access, given the dearth of Kentucky providers
trained to administer the procedure. These findings
demonstrate that potassium chloride injections are not
a feasible workaround to H.B. 454.
3. Umbilical Cord Transection
Finally, the Secretary suggests that abortion
providers may induce fetal demise through umbilical
cord transection. To administer this procedure, the
physician first dilates a patient’s cervix and then—
using an ultrasound for guidance—ruptures the
amniotic membrane in order to allow access inside the

App. 36
amniotic sac, where the umbilical cord is located. This
causes the amniotic fluid to drain from the uterus,
shrinking its size and making it more difficult to
visualize and grasp the umbilical cord. The physician
then inserts an instrument through the cervix and
locates the umbilical cord, which at this stage is
approximately the width of a piece of yarn. Grasping
the umbilical cord, the physician inserts another
instrument through the cervix and cuts the cord. Once
the cord is cut, the physician waits for the fetal
heartbeat to stop, which can take up to ten minutes.
The physician may then administer a standard D&E.
The district court found that this, too, was not a
workable method for inducing fetal demise. It provided
three reasons for that finding. First, umbilical cord
transection is technically challenging because of the
difficulty of visualizing the uterus and locating and
grasping the umbilical cord. Meier, 373 F. Supp. 3d at
821 (citing Tr. Vol. I, R. 106 at PageID ##4434–36; Tr.
Vol. II, R. 107 at PageID ##4669–70, 4672). Second, it
is essentially experimental because there has only been
one study focused on the procedure. Id. (citing Tr. Vol.
I, R. 106 at PageID ##4438–41; Tr. Vol. III-B, R. 102 at
PageID ##3808–09). Finally, umbilical cord transection
carries serious health risks, including blood loss,
infection, and uterine injury. Id. at 821–22 (citing Tr.
Vol. I, R. 106 at PageID ##4436–37; Tr. Vol. II, R. 107
at PageID ##4669, 4673).
The Secretary does not meaningfully challenge any
of these findings, which again are more than
adequately supported by the record. He argues only
that the one study of umbilical cord transection

App. 37
suggests the procedure is feasible, safe, and effective,
as does the fact that an EMW expert and an EMW
doctor had performed umbilical cord transections in the
past. But on clear error review, we will not override the
district court’s decision not to credit a single medical
study after finding that it “does not provide the type or
quality of evidence that warrants reaching generalized
conclusions about the feasibility or reliability of
umbilical cord transection.” Id. at 821. And the simple
fact that umbilical cord transections have been
performed at some point does not suggest that they are
safe in every instance or that they pose no additional,
significant risks to those who would be compelled to
undergo them.
The Secretary also takes issue with the district
court’s statement that umbilical cord transections
“pose[] another hurdle for the provider because if they
cut fetal tissue instead of, or in addition to the cord”
while searching for it in the uterus, “they have
arguably violated the Act.” Id. (citing Tr. Vol. I., R. 106
at PageID ##4435–36; Tr. Vol. II, R. 107 at PageID
##4669–70). The Secretary responds that, because of
H.B. 454’s intent requirement, it does not apply when
a physician accidentally dismembers a fetus prior to
demise, and so it would not be enforced against a
physician in this circumstance. But, as the Eleventh
Circuit has explained in a similar case, “[m]id-litigation
assurances are all too easy to make and all too hard to
enforce, which probably explains why the Supreme
Court has refused to accept them.” Williamson, 900
F.3d at 1328 (citing Stenberg, 530 U.S. at 940–41);
accord Stenberg, 530 U.S. at 945–46; Yost, 375 F. Supp.
3d at 868. Nor does this argument disturb the court’s

App. 38
conclusion that the technical difficulty of umbilical cord
transection makes it an infeasible workaround to H.B.
454.
Taken together, these findings demonstrate that
should patients be required to undergo an umbilical
cord transection prior to receiving a D&E, they would
be subjected to a medically risky and experimental
procedure that, given its technical challenges, fewer
providers may be equipped to administer. These
findings inevitably lead to the conclusion that umbilical
cord transection—like digoxin and potassium chloride
injections—is not a feasible workaround to H.B. 454.
B. Benefits
After taking stock of the burdens imposed by H.B.
454, we must next consider the Act’s benefits. The
Secretary asserts that H.B. 454 provides three primary
benefits: It “shows Kentucky’s profound respect for
unborn life. It eliminates the possibility of unborn
children feeling pain while being dismembered. And [it]
protects the integrity of the medical profession.” (Def.
Br. at 57.)
The Secretary contends that a statement by the
district court—namely, “the fact that the Act furthers
legitimate state interests does not end this
constitutional inquiry”—suggests the district court
found that H.B. 454 did advance the Commonwealth’s
asserted interests. See Meier, 373 F. Supp. 3d at 817.
This conclusion is debatable, at best.
The district court clearly concluded that H.B. 454
did not benefit the Commonwealth’s interest in
preventing fetal pain because “it is very unlikely that

App. 39
a fetus can feel pain before 24 weeks,” at which point
physicians no longer perform D&Es. Id. at 823; accord
Yost, 375 F. Supp. 3d at 865. In so finding, the court
dismissed the Secretary’s expert’s testimony suggesting
that a fetus may feel pain as early as fifteen weeks,
purportedly because the development of a fetus’s ability
to feel pain is like “a dimmer switch” that “turn[s] on
over weeks of development.” (Tr. Vol. IV, R. 103 at
PageID ##4020–21); Meier, 373 F. Supp. 3d at 822.
Instead, the court credited Plaintiffs’ expert testimony,
supported by multiple studies, that it is not possible for
a fetus to feel pain before twenty-four weeks because
“fetal pain perception requires consciousness, which in
turn requires two elements absent in a fetus before 24
weeks: intact [neural] connections from the periphery
[of the brain] to the thalamus and then to the cortex,
and a sufficiently developed cerebral cortex.” Meier, 373
F. Supp. 3d at 822 (citing Tr. Vol. IV, R. 103 at PageID
##4140–55, 4180–82, 4210). Given the abundant
evidence supporting Plaintiffs’ account of pain
perception, the district court’s conclusion was not
clearly erroneous. And, accepting that a fetus cannot
feel pain during the period in which D&Es are
administered, we conclude that H.B. 454 does not
benefit this Commonwealth interest.
The district court made no clear findings
regarding whether or how H.B. 454 advanced the
Commonwealth’s interest in demonstrating respect for
the dignity of human life. Upon consideration, we note
that the Commonwealth’s interests in preventing fetal
pain and demonstrating respect for human life are
substantially intertwined, if not subsumed in one
another. While H.B. 454 would prohibit separation of

App. 40
fetal tissue prior to fetal demise, it would not prohibit
separation of fetal tissue following fetal demise. The
most obvious potential benefit to separating fetal tissue
post-demise rather than pre-demise is that it
eliminates any possibility of fetal pain. But the district
court permissibly found that it is impossible for a fetus
to feel pain during the period in which D&Es are
administered, and so H.B. 454 provides no benefit in
that regard. Nevertheless, even recognizing the
impossibility of fetal pain at this point, some may
believe that separating fetal tissue prior to fetal demise
is more “brutal and inhumane” than or “implicates
additional ethical and moral concerns” beyond those
implicated by separating fetal tissue following demise.
See Gonzales, 550 U.S. at 157–158. In recognition of
that fact, we assume that H.B. 454 provides some
limited benefit in this regard. See Women’s Med.
Prof’l Corp. v. Taft, 353 F.3d at 444 (“[A state’s]
expression of . . . important and legitimate interests
warrants a measure of deference . . . .”).
Turning to the Commonwealth’s final interest in
protecting the ethics, integrity, and reputation of the
medical profession, the district court also came to no
clear findings or conclusions regarding if or how H.B.
454 benefited this interest. We note that H.B. 454
would require physicians to subject their patients to
additional harmful, experimental, and invasive medical
procedures, in contravention of their ethical duties.
(See, e.g., Tr. Vol. II, R. 107 at PageID ##4819–20
(“H.B. 454 is inconsistent with the principle of
nonmaleficence, the principle that physicians should
not do unjustified harm to their patients” because
fetal-demise procedures “offer[] only risks to [the

App. 41
patient], only the risk of harm, and do[] not offer [the
patient] any potential for medical benefits.”).) And to
the extent that physicians have any obligation to not do
harm to a fetus, performing a D&E on a fetus prior to
fetal demise subjects it to little harm, if any, because it
cannot feel pain. If H.B. 454 provides any benefit to the
Commonwealth’s interest in the medical profession, it
also provides countervailing damage to that interest.
We therefore conclude that H.B. 454 provides little to
no benefit in this regard.
C. Balancing
Altogether, H.B. 454 imposes substantial burdens
on the right to choose. Because none of the fetal-demise
procedures proposed by the Secretary provides a
feasible workaround to H.B. 454’s restrictions, it
effectively prohibits the most common second-trimester
abortion method, the D&E. In the balance against
these burdens, we weigh the minimal benefits that
H.B. 454 provides with respect to the Commonwealth’s
asserted interests. These benefits are vastly
outweighed by the burdens imposed by H.B. 454.9
Thus, H.B. 454 unduly burdens the right to choose, in
violation of the Fourteenth Amendment.

9

The Secretary takes issue with the district court’s interpretation
of Hellerstedt as establishing that a regulation constitutes an
undue burden when the burdens it imposes exceed its benefits. The
Secretary argues that a regulation constitutes an undue burden
only when the burdens it imposes substantially outweigh its
benefits. But we need not decide this question today. H.B. 454 fails
under any version of the undue burden analysis because it
provides minimal benefit while imposing substantial burdens on
the right to elect an abortion prior to viability.

App. 42
Should H.B. 454 be allowed to go into effect, it
would cause Plaintiffs’ patients to suffer “‘continuing
irreparable injury’ for which there is no adequate
remedy at law.” Baird, 438 F.3d at 602 (quoting
Kallstrom, 136 F.3d at 1067). The Secretary does not
dispute the district court’s determinations as to any of
the other elements of the permanent injunction
analysis. In any event, those arguments would be
without merit.
Summary
Because the burdens imposed by H.B. 454
dramatically outweigh any benefit it provides, H.B. 454
unduly burdens an individual’s right to elect to have an
abortion prior to viability. Thus, H.B. 454 violates the
Fourteenth Amendment. We affirm.
II.
We turn, then, to the appropriate relief. Plaintiffs
sought—and the district court granted—facial relief
in the form of a declaration that H.B. 454 is
unconstitutional and a permanent injunction against
the enforcement of H.B. 454. Meier, 373 F. Supp. 3d at
826. Facial relief is available when a challenged law
places a substantial obstacle in the path of an
individual’s access to abortion prior to viability in “a
large fraction of cases in which [the provision at issue]
is relevant.” Hellerstedt, 136 S. Ct. at 2320
(alteration in original) (emphasis omitted) (quoting
Casey, 505 U.S. at 895). The Secretary argues that the
district court wrongly declared H.B. 454 facially
unconstitutional.

App. 43
In place of a facial challenge, the Secretary asserts,
Plaintiffs’ claims are better handled through asapplied challenges. Gonzales explained that as-applied
challenges are “the proper manner to protect the health
of the woman if it can be shown that in discrete and
well-defined instances a particular condition has or is
likely to occur in which the procedure prohibited by the
Act must be used.” 550 U.S. at 167. Based on this, the
Secretary contends that situations where fetal-demise
procedures are not feasible due to “side effects, failed
injections, contraindications, the inability to perform
fetal death procedures on certain women, and the
alleged inability to perform digoxin injections before 18
weeks” are such “discrete and well-defined instances”
that the individuals who face them should instead
bring as-applied challenges. (Def. Br. at 61–62.)
But this set of circumstances is not “discrete and
well-defined,” because individuals cannot anticipate
whether they will suffer from side effects or failed
injections. As Plaintiffs point out, those in the midst of
failing procedures or suffering from side effects cannot
rewind time and litigate an as-applied challenge
because they will “already have suffered the very harm
the Constitution prohibits Kentucky from inflicting on
[them].” (Pls. Br. at 62.) Nor are H.B. 454’s burdens
limited to those who find themselves in the situations
the Secretary describes—others will be exposed to
added emotional and logistical burdens, to potentially
dangerous and experimental procedures, and to the
risk that their fetal-demise procedure may go awry.
In his broader challenge to the district court’s award
of facial relief, the Secretary contends that the district

App. 44
court used the wrong denominator to decide whether
H.B. 454 unduly burdens a large fraction of
individuals. As the Supreme Court has explained, “the
relevant denominator is ‘those [women] for whom [the
provision] is an actual rather than an irrelevant
restriction.’” Hellerstedt, 136 S. Ct. at 2320
(alterations in original) (quoting Casey, 505 U.S. at
895). The district court determined that the relevant
denominator was all individuals seeking a D&E during
the time frame in which that procedure is typically
administered. Meier, 373 F. Supp. 3d at 824–25;
accord, e.g., Williamson, 900 F.3d at 1326; Bernard,
392 F. Supp. 3d at 963; Paxton, 280 F. Supp. 3d at 952;
Hopkins, 267 F. Supp. 3d at 1067. The Secretary
argues that the denominator should also include
individuals contemplating an abortion even before the
point in pregnancy when D&Es are performed, because
they might choose to get an abortion prior to thirteen
weeks, rather than have to undergo a fetal-demise
procedure. We disagree. The question is not whether an
individual seeking an abortion might consider H.B. 454
relevant, but whether H.B. 454 actually applies to
restrict her. H.B. 454 is not responsible for preventing
someone from having a D&E before the point that
D&Es are performed; therefore, H.B. 454 does not
actually restrict such individuals and they are not
properly considered in the denominator.
The question then becomes what portion of this
population would be unduly burdened by H.B. 454.
The Secretary complains that the district court did
not adequately define or estimate the number of
individuals who would be unduly burdened by H.B.
454. To the contrary, the district court did estimate the

App. 45
number of relevant individuals who would be
burdened: its estimate was 100%. Meier, 373 F. Supp.
3d at 824. The Secretary counters that H.B. 454 at
most unduly burdens those who suffer from “side
effects, failed injections, and conditions that make
fetal-demise procedures more difficult (obesity, fibroids,
etc.) or impossible (contraindications).” (Def. Br. at 59.)
He asserts that this population is relatively small and
does not make up 100% of the population seeking a
D&E.
Again, we disagree. H.B. 454 does not burden only
those who suffer from side effects, failed indications,
and the aforementioned conditions. All individuals who
seek a D&E abortion in the second trimester must
undergo a fetal-demise procedure. For some, these
procedures may not be possible, and H.B. 454 may
prevent them from receiving a D&E altogether. They
would surely be unduly burdened. Some more may
discover, mid-procedure, that an injection has failed,
that the umbilical cord cannot be located, or that some
other complication occurred. They, too, would be
unduly burdened by the medical harm the procedure
causes or by being compelled to undergo additional,
untested medical procedures to induce fetal demise.
But all those required to undergo a fetal-demise
procedure will be compelled to expose themselves to the
negative consequences to their health, to invest
additional time in the procedure, and to subject
themselves to an additional invasive and potentially
experimental procedure. Thus, the district court
correctly found that 100% of the relevant population
would be unduly burdened by this law.

App. 46
The dissent, for its part, presents a new argument
on the Secretary’s behalf. It says that “H.B. 454 will
not operate as a substantial obstacle to those women
who prefer digoxin injections.” This argument is
meritless, even if we could set aside the lack of factual
findings on this issue and assume that some
individuals may indeed prefer to undergo a fetaldemise procedure before a D&E. An obstacle is an
obstacle, regardless of whether some might be willing
to overcome it. Even those who may be willing to
subject themselves to a fetal-demise procedure are
exposed to the medical risks, uncertain consequences,
potential unavailability, and time and emotional
burden that procedure entails.
The Secretary next asserts that in order for H.B.
454 to constitute an undue burden, “practically all” of
the individuals affected must face a substantial
obstacle to abortion access. (Id. at 40–41, 58 (quoting
Cincinnati Women’s Servs., Inc. v. Taft, 468 F.3d 361,
369 (6th Cir. 2006)); Def. Reply Br. at 29.) As
explained, H.B. 454 unduly burdens not just
“practically” all, but actually all of the individuals
affected, and so this argument is factually meritless.
This argument is also legally meritless. In
Cincinnati Women’s Services, this Court explained that
it “has previously found that a large fraction exists
when a statute renders it nearly impossible for the
women actually affected by an abortion restriction to
obtain an abortion.” 468 F.3d at 373 (citing Voinovich,
130 F.3d at 201). It did not suggest that this is the only
circumstance in which we will find that a large fraction
exists. And the “practically all” language that the

App. 47
Secretary cites comes from this Court’s suggestion that
“[o]ther circuits . . . [have] only found a large fraction
when practically all of the affected women would face
a substantial obstacle.” Id. (emphasis added). In fact,
Cincinnati Women’s Services avoided identifying a
threshold at which this Court might find that a “large
fraction” of individuals are unduly burdened, but it
implied that threshold could be even less than a
majority of women affected. See id. at 374. The Court
explained that “a challenged restriction need not
operate as a de facto ban for all or even most of the
women actually affected,” but “the term ‘large
fraction’ which, in a way, is more conceptual than
mathematical, envisions something more than the 12
out of 100 women identified here.” Id. There can be no
question that H.B. 454 burdens considerably more than
the fraction at issue in Cincinnati Women’s Services.
The Secretary further argues that the district court
did not properly address his contention that there is no
burden because “affected women can simply travel to
other nearby clinics” outside of Kentucky. (Def. Br. at
60–61.) On this point, the Secretary attempts to
“incorporate[] his arguments” from E.M.W. Women’s
Surgical Center, P.S.C. v. Meier, No. 18-6161 (6th Cir.
argued Aug. 8, 2019), which is currently pending before
a panel of this Court. He claims that “five circuit judges
agree with [him] on this point.” (Id. at 61 n.9 (citing
Planned Parenthood of Wis., Inc. v. Schimel, 806 F.3d
908, 933–34 (7th Cir. 2015) (Manion, J., dissenting);
Whole Woman’s Health v. Cole, 790 F.3d 563, 596–98
(5th Cir. 2015) (per curiam), rev’d on other grounds by
Hellerstedt, 130 S. Ct. at 2292; Jackson Women’s

App. 48
Health Org. v. Currier, 760 F.3d 448, 461–67 (5th Cir.
2014) (Garza, J., dissenting)).)
We reject the Secretary’s argument out of hand.
This Circuit has firmly established that, on appeal,
parties may not even “incorporat[e] by reference . . .
arguments made at various stages of the proceeding in
the district court.” Northland Ins. v. Stewart Title
Guar. Co., 327 F.3d 448, 452 (6th Cir. 2003). They
certainly may not incorporate arguments made in
altogether different proceedings. And the authorities
the Secretary cites in support of his proposition are of
no assistance. The only majority decision supporting
his point has been overturned by the Supreme Court,
and dissenting opinions from out-of-circuit cases are of
no weight in our analysis. Moreover, many more circuit
judges—indeed, many more circuit courts, including
the majority in two of the cases the Secretary cites—
have rejected this argument. See, e.g., Azar, 925 F.3d at
1332 (“The undue-burden framework has never been
thought to tolerate any burden on abortion the
government imposes simply because women can leave
the jurisdiction.”); Schimel, 806 F.3d at 918–19
(rejecting as “untenable” the proposition that “the harm
to a constitutional right [can be] measured by the
extent to which it can be exercised in another
jurisdiction” (alteration in original) (quoting Ezell v.
City of Chicago, 651 F.3d 684, 697 (7th Cir. 2011)));
Currier, 760 F.3d at 449 (holding that a state “may
not shift its obligation to respect the established
constitutional rights of its citizens to another state”).
As the Supreme Court explained in Missouri ex rel.
Gaines v. Canada, 305 U.S. 337, 350 (1938), obligations
are “imposed by the Constitution upon the States

App. 49
severally as governmental entities—each responsible
for its own laws establishing the rights and duties of
persons within its borders.” States may not shift the
burden of their constitutional obligations to other
states, “and no State can be excused from performance
by what another State may do or fail to do.” Id.
As a last attempt to save H.B. 454, the Secretary
contends that this Court should tailor its remedy by
granting only limited injunctive relief. The Secretary
asks this Court to “take[] a scalpel-like approach” and
carve out H.B. 454’s unconstitutional applications from
its purported constitutional applications, leaving intact
some skeleton of the prior Act. (Def. Br. at 62.) This
argument fails for several reasons. First, the Secretary
did not make this argument before the district court,
and so it is not preserved for our review. See, e.g., Big
Dipper Entm’t v. City of Warren, 641 F.3d 715, 719–20
(6th Cir. 2011). But even if he had made this argument,
we cannot “rewrit[e] state law to conform it to
constitutional requirements.” Ayotte v. Planned
Parenthood of N. New England, 546 U.S. 320, 329
(2006) (quoting Virginia v. Am. Booksellers Ass’n, Inc.,
484 U.S. 383, 397 (1988)). Specifically, we are “without
power to adopt a narrowing construction of a state
statute unless such a construction is reasonable and
readily apparent.” Stenberg, 530 U.S. at 944 (quoting
Boos v. Barry, 485 U.S. 312, 330 (1988)). H.B. 454 does
not even mention the fetal-demise procedures that the
Secretary claims provide ready workarounds to its
otherwise-complete prohibition of D&E abortions. It
certainly cannot be construed to require those
procedures in only the specific situations the Secretary
identifies. And even if it could be, our undue burden

App. 50
analysis suggests that H.B. 454 unduly burdens one’s
right to elect an abortion prior to viability even in those
situations.
Summary
H.B. 454 imposes an undue burden on not just a
large fraction, but all of the individuals it restricts, and
so facial relief is appropriate. We cannot rewrite H.B.
454 in order to limit that relief to certain especially
unconstitutional applications of the law. Accordingly,
we affirm the district court’s grant of facial relief in the
form of a permanent injunction.
CONCLUSION
For these reasons, we AFFIRM the district court’s
decision.
_________________
DISSENT
_________________
JOHN K. BUSH, Circuit Judge, dissenting. This
case concerns a statute, H.B. 454, that affects women’s
rights to abortions under the Fourteenth Amendment.
What’s odd about this case—but not unusual in the
abortion context—is that not a single person whose
constitutional rights are directly impacted by the law
is a party to the case. What’s even odder—but again,
not uncommon in abortion litigation—is that none of
those individuals even testified at trial. In many cases
the absence of the very people that the case is about
would be the end of the matter: the case would be
dismissed for lack of standing. But in abortion
cases, courts have held that the absence of the

App. 51
constitutionally-affected parties does not matter. In
such cases the interests of the abortion providers who
bring the suit are deemed to be aligned with those of
the affected parties, their patients.
Here, however, there is a potential conflict of
interest between Plaintiffs and their patients: for
whatever reason—be it financial, litigation strategy, or
otherwise—EMW’s physicians have refused to obtain
the necessary training to perform fetal demise, even
though uncontroverted studies presented at trial show
that many, and perhaps a substantial majority, of
women would choose fetal demise before undergoing a
D&E procedure. Such women may favor the effect of
H.B. 454, which would, among other things, require
EMW’s doctors to be trained in fetal demise if they are
to perform the D&E procedure. Contrary to this patient
preference, EMW’s doctors simply do not want to
provide fetal demise before a D&E procedure, and their
opposition to fetal demise creates a potential conflict of
interest that deprives them of standing to bring this
facial challenge against H.B. 454.
Plaintiffs are two abortion providers and an
abortion clinic. Their only claims for relief rest on the
premise that H.B. 454 “violates Plaintiffs’ patients’
right to liberty . . . privacy . . . [and] bodily integrity
guaranteed by the due process clause of the Fourteenth
Amendment to the U.S. Constitution.” Plaintiffs’ claim
is thus based solely on the rights of their patients,
because abortion providers “do not have a Fourteenth
Amendment right to perform abortions.” Planned
Parenthood of Greater Ohio v. Hodges, 917 F.3d 908,
912 (6th Cir. 2019) (en banc). The Majority holds that

App. 52
Plaintiffs have third-party standing to sue on behalf of
their patients, but it does not sufficiently fulfill our
“independent obligation to assure that standing exists.”
Summers v. Earth Island Inst., 555 U.S. 488, 499
(2009).1
Oral argument in this case highlighted why
Plaintiffs do not have standing because of the potential
conflict of interest identified above. Plaintiffs’ counsel
was asked what EMW’s physicians would do if a
patient asked for fetal demise before a D&E. The
answer of Plaintiffs’ counsel made clear that the

1

Defendants challenged Plaintiffs’ standing before the district
court, (R. 108 at PageID 5034–35), but even if they had not, and
contrary to the Majority’s assertion, we would not be relieved of
our duty to ensure that standing requirements have been met. See
Cmty. First Bank v. Nat’l Credit Union Admin., 41 F.3d 1050, 1053
(6th Cir. 1994) (holding that there is “no authority for the
plaintiffs’ argument that prudential standing requirements may
be [forfeited] by the parties” and declining to “recogniz[e] a
distinction between prudential and constitutional standing
requirements in this context”); see also Am. Immigration Lawyers
Ass’n v. Reno, 199 F.3d 1352, 1357 (D.C. Cir. 2000) (“[I]n this
circuit we treat prudential standing as akin to jurisdiction, an
issue we may raise on our own”); MainStreet Org. of Realtors v.
Calumet City, Ill., 505 F.3d 742, 747 (7th Cir. 2007)
(“[N]onconstitutional lack of standing belongs to an intermediate
class of cases in which a court can notice an error and reverse on
the basis of it even though no party has noticed it”); Thompson v.
Cty. of Franklin, 15 F.3d 245, 248 (2d Cir. 1994) (holding that “we
have an independent obligation to examine . . . [prudential]
standing under arguments not raised below”). In creating a
distinction between Article III standing and prudential standing
in the forfeiture context, the Majority opinion conflicts with the
clear weight of the law, including precedent from this court. (See
Majority Op. at n.2).

App. 53
physicians would do nothing to honor this request and
that her only option would be to travel out of state for
the procedure. This admission and the evidence
presented at trial demonstrate a potential conflict of
interest that destroys Plaintiffs’ standing to bring this
facial constitutional challenge against H.B. 454.
I.
Whether a plaintiff has standing to bring suit is
“the threshold question in every federal case.” Warth v.
Seldin, 422 U.S. 490, 498 (1975). Examination of the
standing issue “involves two levels of inquiry.” Planned
Parenthood Ass’n of Cincinnati, Inc. v. City of
Cincinnati, 822 F.2d 1390, 1394 (6th Cir. 1987). The
first is “of a constitutional dimension” and involves
determining whether the plaintiff has suffered an
injury in fact that is likely to be redressed by a
favorable decision. Id. (citing Simon v. Eastern
Kentucky Welfare Rights Org., 426 U.S. 26, 38 (1976)).
The second is “prudential” and concerns whether “the
plaintiff is the proper proponent of the rights on which
the action is based.” Id. (citing Singleton v. Wulff, 428
U.S. 106, 112 (1976)).
Relevant to the second inquiry, the Supreme Court
has held that generally, a plaintiff “must assert his
own legal rights and interests, and cannot rest his
claim to relief on the legal rights or interest of [other]
parties.” Warth v. Seldin, 422 U.S. 490, 499 (1975)
(citing Tileston v. Ullman, 318 U.S. 44 (1943) (per
curiam)). There is a “limited . . . exception” to this
general rule when the third party can show: (1) that
the third party has “a ‘close’ relationship with the
person who possesses the right,” and (2) that “there is

App. 54
a ‘hindrance’ to the possessor’s ability to protect his
own interests.” Kowalski v. Tesmer, 543 U.S. 125,
129–30 (2004) (citation omitted).2
In Singleton v. Wulff, a case involving a challenge to
limits on Medicaid funding for abortions in Missouri, a
plurality of the Supreme Court held that the
plaintiff-physicians satisfied the closeness and
hindrance requirements for third-party standing.

2

Although I am bound by this court’s and the Supreme Court’s
precedent that third-party standing is a question of prudential
jurisdiction, I note that constitutional considerations also
underlie my conclusion that Plaintiffs lack standing in this case.
See Lexmark Int’l v. Static Control Components, 572 U.S. 118, 127
n.3 (2014) (reserving the question of whether third-party standing
should be treated as a component of Article III jurisdiction). I have
my doubts that an injury can be “particularized” enough to
constitute an injury in fact when the alleged injury belongs solely
to a third party, as it does here. See Lujan v. Defs. Of Wildlife, 504
U.S. 555, 560 n.1 (1992) (“By particularized, we mean that the
injury must affect the plaintiff in a personal and individual way.”).
Due process concerns also drive my decision. Plaintiffs are
essentially seeking to act as a representative for a class of all their
patients affected by H.B. 454. The Due Process Clause requires
“that the named plaintiff at all times adequately represent the
interests of the absent class members.” Phillips Petroleum Co. v.
Shutts, 472 U.S. 797, 812 (1985) (citing Hansberry v. Lee, 311 U.S.
32, 42-43, 45, 85 L. Ed. 22, 61 S. Ct. 115 (1940)). As in the class
action context, it would be inequitable, and perhaps deleterious to
due process rights, to allow a putative representative for a group
of people to proceed with litigation in a representative capacity
when those who are purportedly represented may not desire the
relief that the putative representative seeks. See Duke Power Co.
v. Carolina Envtl. Study Grp., 438 U.S. 59, 80 (1978) (citation
omitted) (holding that third-party standing should be limited to
“avoid[] . . . the adjudication of rights which those not before the
Court may not wish to assert”).

App. 55
428 U.S. at 118. The plurality explained that the close
relationship between doctors and patients was “patent”
since a woman cannot “safely secure an abortion
without the aid of a physician.” Id. at 117. And a
woman faced multiple hindrances to challenging the
Missouri law, including “a desire to protect the very
privacy of her decision [to abort] from the publicity of
a court suit” and “the imminent mootness . . . of any
individual woman’s claim” when she is no longer
pregnant. Id. While the plurality acknowledged that
these obstacles are “not insurmountable,” it
nevertheless concluded “that it generally is appropriate
to allow a physician to assert the rights of women
patients as against governmental interference with the
abortion decision.” Id. at 117–18.
Since Wulff was decided, we and our sister circuits
have routinely conferred third-party standing on
abortion providers without engaging in a serious
analysis of whether the plaintiffs have satisfied the
closeness and hindrance requirements.3 But, we should
3

See, e.g., Planned Parenthood Ass’n of Cincinnati, Inc., 822 F.2d
at 1396 n.4 (citing Margaret S. v. Edwards, 794 F.2d 994, 997 (5th
Cir. 1986)) (“[T]he Supreme Court has visibly relaxed its
traditional standing principles in deciding abortion cases.”);
Volunteer Medical Clinic, Inc. v. Operation Rescue, 948 F.2d 218,
223 (6th Cir. 1991); see also Planned Parenthood of N. New Eng. v.
Heed, 390 F.3d 53, 56 n.2 (1st Cir. 2004), vacated sub nom. Ayotte
v. Planned Parenthood of N. New Eng., 546 U.S. 320 (2006); N.Y.
State Nat’l Org. for Women v. Terry, 886 F.2d 1339, 1347–48 (2d
Cir. 1989); Am. Coll. Of Obstetricians & Gynecologists, Penn.
Section v. Thornburgh, 737 F.2d 283, 289 n.6 (3d Cir. 1984), aff’d
sub nom. Thornburgh v. Am. Coll. Of Obstetricians &
Gynecologists, 476 U.S. 747 (1986); Greenville Women’s Clinic v.
Bryant, 222 F.3d 157, 194 n.16 (4th Cir. 2000); Margaret S., 794

App. 56
not read Wulff so broadly to confer third-party standing
virtually any time an abortion provider seeks to
invalidate an abortion regulation. First, only a
plurality of the Wulff Court, not a majority, held that
the providers had third-party standing. But more
critically, Wulff was a case in which the interests of the
plaintiffs and the rights-holders were parallel, because
both providers and patients had an interest in
removing state funding limits on abortion. Wulff is not
applicable in a case like this, where providers have a
potential conflict of interest with many, if not most, of
their patients, and the closeness requirement of
Kowalski is thus not satisfied.
To be sure, Wulff and cases following that decision
emphasize the doctor-patient relationship as the basis
for abortion providers to have third-party standing to
assert their patients’ constitutional rights. “But a close
personal relationship” such as between a doctor and a
patient “is neither necessary nor sufficient for third
party standing.” Amato v. Wilentz, 952 F.2d 742, 751
(3d Cir. 1991). “Even a close relative will not be heard
to raise positions contrary to the interests of the third
party whose rights he or she claims to represent: the
litigant would then hardly be a vigorous advocate of the
third party’s position.” Id. at 751–52. For example, in
Gilmore v. Utah, 429 U.S. 1012 (1976), the mother of a

F.2d at 997; Planned Parenthood of Wis. v. Schimel, 806 F.3d 908,
910–11 (7th Cir. 2015); Comprehensive Health of Planned
Parenthood Great Plains v. Hawley, 903 F.3d 750, 757 n.7 (8th Cir.
2018); Planned Parenthood of Idaho, Inc. v. Wasden, 376 F.3d 908,
916–18 (9th Cir. 2004); Planned Parenthood Ass’n of Atlanta Area,
Inc. v. Miller, 934 F.2d 1462, 1465 n.2 (11th Cir. 1991).

App. 57
man convicted of murder lacked third-party standing to
seek a stay of her son’s execution where he “himself
knowingly and intelligently . . . waive[d]” his right to
appeal. Amato, 952 F.2d at 752 (citing Gilmore, 420
U.S. at 1013).
Plaintiffs have the burden of establishing that they
satisfied all of the requirements for Article III and
prudential standing, including the closeness
requirement for third-party standing. See Lujan v.
Defenders of Wildlife, 504 U.S. 555, 561 (1992) (citing
Fed. R. Civ. Pro. 56(e)) (holding that “the party
invoking federal jurisdiction bears the burden of . . .
‘set[ting] forth’ by affidavit or other evidence ‘specific
facts’” supporting their claim to standing); Amato, 952
F.2d at 750 (“[W]e will bear in mind that third party
standing is exceptional: the burden is on the [plaintiff]
to establish that it has third party standing, not on the
defendant to rebut a presumption of third party
standing.”). Plaintiffs failed to satisfy their burden.
None of Plaintiffs’ patients, with whom they claim a
close relationship, testified at trial. Indeed, Plaintiffs
did not even invoke a specific patient’s rights. Instead,
Plaintiffs relied on their “relationship[s] with as yet
unascertained” patients. Kowalski, 543 U.S. at 131.
Such “hypothetical . . . relationship[s]” do not satisfy
Kowalski’s closeness requirement. See id.
What is more, the evidence presented at trial shows
that although Plaintiffs have an interest in challenging
H.B. 454, a substantial majority of their patients may
very well favor the effect of H.B. 454 because they
prefer fetal demise prior to a D&E. Such a potential
conflict of interest precludes a finding of closeness. See

App. 58
Elk Grove Unified Sch. Dist. v. Newdow, 542 U.S. 1, 15
(2004) (holding that the plaintiff lacked standing
because the interests of the plaintiff and the rightholder were “potentially in conflict”); Mercer v.
Michigan State Bd. of Educ., 419 U.S. 1081 (1974), aff’g
379 F. Supp. 580 (E.D. Mich. 1974) (affirming a district
court decision that denied a public school teacher
standing to assert the rights and parents, when the
district court could not determine “whether or not any
parents or students desire these laws to be changed.”).4
Dr. Thorp, a professor in the School of Medicine at
the University of North Carolina, testified at trial that
in one study examining women’s preferences for fetal
demise procedures, “73 percent . . . reported that if

4

“The extent of potential conflicts of interest between the plaintiff
and the third party whose rights are asserted matters a good deal.
While it may be that standing need not be denied because of a
slight, essentially theoretical conflict of interest, we have held that
genuine conflicts strongly counsel against third party standing.”
Amato, 952 F.2d at 750 (citing Polaroid Corp. v. Disney, 862 F.2d
987, 1000 (3d Cir. 1988)); accord Pony v. Cty. of Los Angeles,
433 F.3d 1138, 1147 (9th Cir. 2006) (citations omitted) (“A litigant
is granted third-party standing because the tribunal recognizes
that her interests are aligned with those of the party whose rights
are at issue and that the litigant has a sufficiently close connection
to that party to assert claims on that party’s behalf.”); Harris v.
Evans, 20 F.3d 1118, 1124 (11th Cir. 1994) (en banc) (“Courts have
repeatedly emphasized that the key to third-party standing
analysis is whether the interests of the litigant and the third party
are properly aligned, such that the litigant will adequately and
vigorously assert those interests.”); Canfield Aviation, Inc. v.
National Transp. Safety Bd., 854 F.2d 745, 748 (5th Cir. 1988)
(citing Wulff, 428 U.S. at 114–15) (“When examining [whether a
plaintiff has third-party standing], courts must be sure . . . that the
litigant whose rights he asserts have interests which are aligned”).

App. 59
given the choice, they prefer to receive digoxin before
the D&E procedure.” (R.102 at PageID 3756) In
another study, the Jackson study, 92 percent of women
“reported a strong preference for fetal death before
abortion.” (R. 102 at PageID 3734) Dr. Curlin, a
professor in the School of Medicine at Duke University,
testified:
We know from studies of women who are
undergoing abortion that they are conscious of
what is happening to their fetus and that for
many that’s quite disturbing, and I think [the
Jackson study] gives some not very surprising
evidence that at least a substantial portion of
women would prefer that something be done so
that that fetus has died before it’s dismembered.
(R. 104 at PageID 4309).
Even the study that Plaintiffs presented admitted
that “several studies have reported a preference for
feticide before evacuation.” (R. 106 at PageID 4448).
Another study cited by Plaintiffs stated, “Majority of
subjects, 73 percent, reported that, if given the choice,
they preferred to receive digoxin before the D&E
procedure.” (R. 106 at PageID 4497). Granted, these
studies are only circumstantial evidence of the
preferences of EMW’s patients, but they were the only
evidence of such preference presented at trial because,
as noted, none of those patients testified.
The reasons why a woman would make the choice
for fetal demise were demonstrated at trial. Dr.
Anthony Levantino testified that in a D&E procedure,
the “[f]etus dies from dismemberment from literally

App. 60
having arms and legs pulled off”; “[it] bleed[s] to
death.” (R. 102 at PageID 3710). Another physician, Dr.
David Berry, described a D&E procedure in which the
doctor “pulled out a spine and some mangled ribs and
the heart was actually still beating.” (R. 103 at PageID
3884). It is not difficult to understand why a majority
of women would want the heart to stop beating before
the fetus undergoes such an ordeal. As the Supreme
Court has recognized, “No one would dispute that, for
many, D&E is a procedure itself laden with the power
to devalue human life.” Gonzales v. Carhart, 550 U.S.
124, 158 (2007). This is because “[t]he fetus, in many
cases, dies just as a human adult or child would: It
bleeds to death as it is torn limb from limb.” Stenberg
v. Carhart, 530 U.S. 914, 958–59 (2000) (Kennedy, J.,
dissenting) (citation omitted).5 Plaintiffs themselves
acknowledged as much, given that they did not
question “the legitimacy” of “interests” that would favor
stopping the heartbeat before D&E begins. EMW
Women’s Surgical Center, P.S.C. v. Meier, 373 F. Supp.
3d 807, 817 (W.D. Ky. 2019).

5

The gruesomeness of the D&E procedure is a reason that many
abortion patients may prefer to avoid it altogether by having the
abortion performed by aspiration earlier in the pregnancy, before
limbs have begun to form. See Pre-Term Cleveland, et al. v.
Attorney Gen. of Ohio, et al., No. 20-3365, 2020 WL 1673310, at *4
(6th Cir. Apr. 6, 2020) (Bush, J., concurring in part and dissenting
in part) (noting that one factor to be considered in assessing the
constitutionality of a COVID-19 emergency order delaying abortion
procedures is “the preference of many women for having the
abortion while the aspiration method can be performed, rather
than the dilation & evacuation procedure that is required for later
abortions.”). H.B. 454 imposes no requirement of fetal demise
before an abortion by the aspiration method may be performed.

App. 61
These interests exist regardless of whether the
unborn life feels any pain from the D&E procedure.
These interests also are significant enough that a
woman, even after hearing of the health risks involved,
might opt for fetal demise simply to be assured that the
fetus was not alive when its limbs were torn apart.6
Plaintiffs, however, have interests that do not align
with those women who want fetal demise before D&E.
For example, EMW’s physicians do not want to receive
the training needed to give the injections, even though
the evidence at trial was that injections are not difficult
6

Although the district court found that digoxin injections can carry
significant health risks, the court did not find that the health risks
are so significant that most or even some women, if made known
of the health risks, would forgo a fetal demise procedure. There is
evidence in the record demonstrating that many or most women
would decide that the value of a digoxin injection, at least in terms
of peace of mind that the fetal heart is no longer beating when
D&E occurs, outweighs the health risks of the injection. The
Steward study, for example, found that of 4,096 patients who
received digoxin injections, only 0.04 percent—or 4 in 10,000—had
infections, and only .3 percent—or 3 in 1,000—experienced
extramural delivery. (R. 102 at PageID 3741). The Tocce study of
1,662 patients, which involved transvaginal, rather than
transabdominal, digoxin injections (as in the Steward study),
involved a higher rate of health risk, but not by much: 0.49 percent
for infection and 0.12 for extramural delivery. (R. 102 at PageID
3744). In any event, it is not necessary in assessing an abortion
provider’s third-party standing to make a factual finding as to the
number of patients who actually would choose fetal demise if
informed of the health risks. What matters is whether there is a
potential that a patient would do so, for as noted, third-party
standing is defeated if the interests of the plaintiff and the
right-holder are merely “potentially in conflict.” Newdow, 542 U.S.
at 15 (emphasis added). The evidence demonstrates that there is
a potential conflict here.

App. 62
to administer, training to perform the procedure is
available, and such injections are within the reasonable
medical scope of care.
The district court stated that digoxin injections can
be “difficult, if not impossible, to administer,” Meier,
373 F. Supp. 3d at 838, but this statement was
contradicted by the district court’s factual finding that
digoxin injections “are not terribly difficult to perform,
as it can also be administered into the amniotic fluid.”
Id. One study introduced into evidence concluded that
“[i]n our clinical experience where patients do not
receive intravenous sedation, we have found it easy to
administer intrafetal injection[s],” (R. 102 at PageID
3758), and in another study presented at trial, even
medical residents performed them, (R. 102 at PageID
3733–34).
Evidence was also presented that it is possible for
EMW’s doctors to receive training to perform digoxin
injections. Dr. Franklin, one of EMW’s doctors,
acknowledged that digoxin injections are “very similar
to amniocentesis, which I have done in the past,” and
she admitted that she “technically . . . would be able to”
obtain the training to perform the injections. (R. 107 at
PageID 4716). Dr. Bergin, EMW’s other doctor,
similarly testified that “probably with proper training
I could learn to do” digoxin injections. (Trial Ex. 420 at
117)
Finally, Dr. Davis—whom EMW called as an expert
but did not hire as one of their physicians—
acknowledged that an intrafetal or intraamniotic
digoxin injection is within the standard of care for an
OB/GYN to perform; indeed, she herself had

App. 63
performed such injections. (R. 106 at PageID 4460).
Likewise, the National Abortion Federation states in
its 2018 Clinical Policy Guidelines for Abortion Care
that an intraamniotic or intrafetal digoxin injection is
a permissible option for accomplishing fetal death
before a D&E procedure. (R. 106 at PageID 4514–15).
Another study funded by a Planned Parenthood
affiliate reported that Planned Parenthood’s clinics in
Los Angeles, California had “protocols” that “dictate[d]
the use of digoxin for all second trimester abortions.”
(R. 102 at PageID 3755–56).
Notwithstanding this evidence, and proof that even
Plaintiffs’ own physician experts regularly inject
digoxin and do so intrafetally, the Plaintiff-physicians
have refused to obtain the necessary training to do the
injections or to hire a physician like Dr. Davis who has
that training. As noted, when questioned at oral
argument as to what EMW’s doctors would do if a
woman asked for a digoxin injection before a D&E
procedure, Plaintiffs’ counsel responded that her only
option would be to travel out of state to have her
abortion. And, indeed, there are practitioners in our
circuit as close as southwestern Ohio, across the river
from Kentucky, who perform digoxin injections. See
Planned Parenthood Sw. Ohio Region v. Yost, 375 F.
Supp. 3d 848, 857 (S.D. Ohio 2019) (listing doctors in
southwestern Ohio who perform digoxin injections).
But, given the evidence of the possibility of obtaining
the necessary training to provide the injection, it is
questionable why the EMW physicians insist that they
cannot obtain this training or hire a doctor who does
have that skill.

App. 64
At the very least, the proof at trial reflects a
potential conflict between the interests of the EMW
physicians and some, perhaps the majority, of the
patients that they seek to represent. All of the
evidence presented at trial about patient preference
circumstantially supports a finding that at least
some—and potentially, most—of patients seen by
Plaintiffs would favor the effect of H.B. 454 because
those patients would want fetal demise before a D&E.
The statute essentially requires that abortion providers
at EMW receive the necessary training, which in turn
would allow those women who prefer fetal demise to
obtain it before the D&E procedure is performed.7
7

That EMW’s physicians say they will not obtain the training in
fetal demise, and will stop performing D&E procedures altogether,
if H.B. 454 is upheld, is no answer to their conflict-of-interest
problem. The patients who want fetal demise are already being
denied the D&E procedure they want in Kentucky because of
Appellee’s position that those patients must go out of state to have
the procedure performed with fetal demise. Enactment of H.B. 454
may not immediately change this reality for these women who
must go out of state. But, of course, parties to litigation may
change their attitude towards a law once it is upheld in court, so
if H.B. 454 is allowed to go into effect, EMW’s physicians may
decide to get the necessary training to comply with the law after
all. In addition, in the period since the district court issued its
injunction, another provider, Planned Parenthood, has obtained a
license to perform abortions in Kentucky. Planned Parenthood to
Expand Abortion Access in Kentucky, PLANNEDPARENTHOOD.ORG,
http://plannedparenthood.org/planned-parenthood-indiana-kent
ucky/newsroom/planned-parenthood-to-expand-abortion-access-inkentucky (last visited May 4, 2020). It is entirely possible that
physicians at Planned Parenthood in Kentucky, like their
counterparts in southwestern Ohio, see Planned Parenthood Sw.
Ohio Region, 375 F. Supp. 3d at 857, will have the expertise to
perform fetal demise. But regardless, so long as EMW’s physicians

App. 65
Because of this potential conflict of interest between
Plaintiffs and many or most of their patients, I would
hold that Plaintiffs have not shown that they have
satisfied the closeness requirement necessary to invoke
their patients’ rights. See Newdow, 542 U.S. at 15.8
None of the cases the Majority cites dictate the
opposite result. In City of Akron, the interests of the
“minor patients” and abortion providers were largely
parallel, as both wanted to abortions to proceed
without involving parents in the decision. See City of
Akron v. Akron Ctr. for Reprod. Health, Inc., 462 U.S.
416, 440 n.30 (1983), overruled on other grounds by
Planned Parenthood of Se. Penn. v. Casey, 505 U.S. 833

refuse to obtain the necessary training and refuse to offer fetal
demise to patients, they have a potential conflict of interest with
their patients who want fetal demise.
8

For similar reasons, I would also hold that a facial challenge is
not the proper vehicle here. A facial challenge could be proper only
if, “in a large fraction of the cases in which [H.B. 454] is relevant,
it will operate as a substantial obstacle to a woman’s choice to
undergo an abortion.” Cincinnati Women’s Servs., Inc. v. Taft, 468
F.3d 361, 367 (6th Cir. 2006) (citation omitted). H.B. 454 will not
operate as a substantial obstacle to those women who prefer
digoxin injections. Given the potential for a D&E procedure to
“devalue human life,” Gonzales, 550 U.S. at 158, many women who
are aware of the health risks involved might nonetheless opt for
digoxin injections. For those women, requiring doctors to receive
training to perform fetal demise would not be unconstitutional. To
be sure, the district court did credit Plaintiffs’ evidence that D&E
abortions will no longer be performed in Kentucky if H.B. 454 goes
into effect, and I do not dispute that that fact, if true, would cause
H.B. 454 potentially to unduly burden women that do not prefer
fetal demise. Meier, 474 F. Supp. 3d at 824. As-applied challenges
may be brought by those women.

App. 66
(1992). Danforth and Bolton are also inapposite,
because there, the Supreme Court did not analyze the
closeness and hindrance requirements as Kowalski
requires. See Planned Parenthood of Cent. Missouri v.
Danforth, 425 U.S. 52, 62 (1976); Doe v. Bolton, 410
U.S. 179, 188 (1973). Instead, the Court held, without
further analysis, that the plaintiff-physicians had
standing because the statutes in question subjected
them to potential criminal prosecution. Danforth, 425
U.S. at 62; Bolton, 410 U.S. at 188. While that may
speak to the plaintiffs’ standing to assert their own
rights, it says nothing about the plaintiffs’ third-party
standing to assert the patients’ rights. Just because one
may have an injury-in-fact—such that she has standing
to assert her own rights—does not mean she has
third-party standing to assert the rights of others.
Kowalski instructs that plaintiffs must satisfy the
closeness and hindrance requirements in order to
assert the rights of others in court. Kowalski, 543 U.S.
at 129–30. Because Plaintiffs have not shown that they
satisfy the closeness requirement in this case, I would
hold that they lack third-party standing to sue on
behalf of their patients.
II.
Even if the Majority disagrees on the third-party
standing analysis, they should nonetheless delay
issuing an opinion in this case pending the Supreme
Court’s disposition of June Medical Services. The
Supreme Court granted certiorari in that case on
October 4, 2019, and argument was held on March 4,
2020. See June Medical Servs. L.L.C. v. Gee, 140 S. Ct.
35 (Mem.) (2019). One of the questions raised in June

App. 67
Medical Services is whether abortion providers have
third-party standing to invoke the constitutional rights
of potential patients in challenging abortion laws. We
have broad discretion to stay proceedings to conserve
judicial resources and avoid duplicative litigation, and
we should exercise that discretion here. See Landis v.
N. Am. Co., 299 U.S. 248, 254 (1936); Colo. River Water
Conservation Dist. v. United States, 424 U.S. 800, 817
(1976).
We recently held in abeyance an appeal that raised
an issue the U.S. Supreme Court granted certiorari to
decide, pending the Supreme Court’s disposition of that
issue. See United States v. Lara, 679 F. App’x 392, 395
(6th Cir. 2017) (“Because our decision turns on
precedent for which the Supreme Court has recently
granted certiorari, we hold Lara’s challenge in
abeyance pending resolution of that issue.”). Other
circuits have done the same. Mandel v. Max-France,
Inc., 704 F.2d 1205, 1206 (11th Cir. 1983) (appeal held
in abeyance pending Supreme Court decision);
Chowdhury v. Worldtel Bangladesh Holding, Ltd., 746
F.3d 42, 47 (2d Cir. 2014) (same); Golinski v. U.S.
Office of Pers. Mgmt., 724 F.3d 1048, 1050 (9th Cir.
2013) (same); Does v. Williams, No. 01-7162, 2002 WL
1298752, at *1 (D.C. Cir. June 12, 2002) (per curiam)
(same). Indeed, the Fifth Circuit held in abeyance a
case with substantially similar facts to this case,
pending the Supreme Court’s disposition of June
Medical Services. See Whole Woman’s Health, et al. v.
Ken Paxton, et al., No. 17-51060, Doc. No.
00514871170. The majority’s decision to issue an
opinion just before the Supreme Court potentially

App. 68
decides an outcome-determinative issue in our case
seems to me an unwise use of judicial resources.
For these reasons, I must respectfully dissent.

App. 69

APPENDIX B
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
CIVIL ACTION NO: 3:18-CV-00224-JHM
[Filed: May 10, 2019)
__________________________________________
EMW WOMEN’S SURGICAL CENTER, )
P.S.C., et al.
)
)
PLAINTIFFS
)
)
V.
)
)
ADAM W. MEIER et al.
)
)
DEFENDANTS
)
__________________________________________)
MEMORANDUM OPINION INCORPORATING FINDINGS
OF FACT AND CONCLUSIONS OF LAW
This matter came before the court for a bench trial
that commended on November 13, 2018 and concluded
on November 19, 2018. The court has reviewed the
parties’ post-trial briefs and the evidence at trial, and
its findings of facts and conclusions of law are set forth
below.

App. 70
I.

BACKGROUND

A. Procedural History
Plaintiffs, a Kentucky abortion facility and its two
board-certified obstetrician-gynecologists (“OB-GYN”)
Drs. Ashlee Bergin and Tanya Franklin, challenge
the constitutionality of a recently enacted Kentucky
abortion law. The law at issue regulates secondtrimester abortion procedures and is included in House
Bill 454 (“H.B. 454” or “the Act”). Plaintiffs allege that
the Act’s requirement that Kentucky physicians
perform a fetal-demise procedure prior to performing
the evacuation phase of a standard Dilation and
Evacuation (“D&E”) abortion—the principal secondtrimester abortion method nationally—is a substantial
obstacle to a woman’s right to choose a lawful previability second-trimester abortion. As such, Plaintiffs
argue H.B. 454 is unconstitutional. More specifically,
the individual Plaintiffs assert that, if the Act goes into
effect, they will stop performing standard D&E
abortions altogether due to ethical and legal concerns
regarding compliance with the law, thereby rendering
abortions unavailable in the Commonwealth of
Kentucky starting at 15.0 weeks from the date of a
woman’s last menstrual period (“LMP”).1
Defendants respond that the Act has neither
the purpose nor the effect of placing an undue burden
on a woman seeking a second-trimester abortion.
Rather, the Defendants contend that H.B. 454
appropriately advances the Commonwealth’s interests
1

Unless otherwise indicated, all references to weeks of pregnancy
are LMP.

App. 71
while leaving open alternative means of obtaining an
abortion—specifically, by receiving an additional
medical procedure to cause fetal-demise prior to the
evacuation phase of a standard D&E. The proposed
alternative methods for physicians to induce
fetal-demise are threefold: (1) digoxin injection;
(2) potassium chloride injection; and (3) umbilical cord
transection. The Commonwealth maintains that these
procedures are safe, available, and reliable methods
for causing fetal-demise. Thus, the Commonwealth
claims that H.B. 454 does not operate as an undue
burden on a woman’s right to a second-trimester
pre-viability abortion and is thus a constitutional
abortion regulation.
On the day the Act was signed, Plaintiffs filed this
lawsuit challenging it as a violation of Plaintiffs’
patients’ Fourteenth Amendment rights to privacy and
bodily integrity. [DN 1 ¶¶ 46–49]. Thereafter, Plaintiffs
filed a Motion for a Temporary Restraining Order and
Preliminary Injunction and the Court convened a
telephonic hearing on the Motion. [DN 6]. During the
telephonic hearing, the parties agreed to the entry of a
consent order suspending enforcement of the Act until
the Court ruled on Plaintiffs’ motion for preliminary
injunctive relief. [DN 24]. The Court later issued an
order requiring the parties to continue abiding by the
terms of the consent order until the trial on the merits.
[DN 56].
B. The Act
H.B. 454 states in relevant part:

App. 72
No person shall intentionally perform or . . .
attempt to perform . . . an abortion on a
pregnant woman that will result in the bodily
dismemberment, crushing, or human vivisection
of the unborn child when the probable postfertilization age of the unborn child is eleven
(11) weeks or greater, except in the case of a
medical emergency.
Act, § 1(2)(a)-(b). “Bodily dismemberment, crushing, or
human vivisection” is further defined by H.B.454 as
any
procedure in which a person, with the purpose of
causing the death of an unborn child,
dismembers the living unborn child and extracts
portions, pieces, or limbs of the unborn child
from the uterus through the use of clamps,
grasping forceps, tongs, scissors, or a similar
instrument that . . . slices, crushes, or grasps . . .
any portion, piece, or limb of the unborn child’s
body to cut or separate the portion, piece, or
limb from the body.
Id. § 2(18). A “medical emergency” exception is
provided for under this framework. Such an emergency
is defined as a condition that “so complicates the
medical condition of a pregnant female as to
necessitate the immediate abortion of her pregnancy to
avert her death or for which a delay will create serious
risk of substantial and irreversible impairment of a
major bodily function[.]” K.R.S. § 311.720(9); see Act
§ 1(1)(b). A physician found to be in violation of the Act
commits a Class D felony, subjecting him or her
to punishment of up to five years’ imprisonment,

App. 73
KRS § 532.060(2)(d), and can also expose clinics and
physicians to adverse licensing and disciplinary action.
See KRS § 311.565; KRS § 311.606.
The parties do not dispute that after approximately
15 weeks of pregnancy and before a fetus is viable, the
most common second-trimester abortion procedure
nationwide is a standard D&E without first inducing
fetal-demise. It is also undisputed that the Act
prohibits the standard D&E abortion unless fetaldemise occurs before any fetal tissue is removed from
the woman.
II.

DISCUSSION

Plaintiffs seek a permanent injunction of H.B. 454.
In determining whether a permanent injunction should
issue, four considerations are relevant: (1) whether
plaintiff showed actual success on the merits;
(2) whether the movant will suffer irreparable injury
unless the injunction issues; (3) whether issuance of
the injunction would cause substantial harm to others;
and (4) whether the public interest would be served by
issuance of the injunction. Jolivette v. Husted, 694 F.3d
760, 765 (6th Cir. 2012) (outlining the permanent
injunction factors). The plaintiff bears the burden of
persuasion as to each of these four showings. The court
will address each showing but first addresses a
justiciability question raised by the Commonwealth.
A. Standing
As a preliminary matter, the Commonwealth
asserts that EMW lacks standing to challenge the
constitutionality of H.B. 454. Ordinarily, a party
cannot claim standing to vindicate constitutional rights

App. 74
of some third party, in this case the patients of EMW.
Singleton v. Wulff, 428 U.S. 106, 114 (1976). However,
this general rule has exceptions. Without engaging in
a lengthy analysis about the relationship between
EMW and its patients, it is enough to state that it is
well-established that it is “appropriate to allow a
physician to assert the rights of women patients as
against governmental interference with the abortion
decision . . . .” Id. at 118; see also Planned Parenthood
Ass’n of Cincinnati, Inc. v. City of Cincinnati, 822 F.2d
1390, 1396 (6th Cir. 1987) (holding that Planned
Parenthood and its Medical Director had standing to
assert the third-party rights of their patients because
the patients’ rights are “inextricably bound up with the
activity the . . . clinic desires to pursue and seemingly
would not be asserted as effectively by the third parties
who actually possess those rights”) (internal quotation
marks omitted); Northland Family Planning Clinic,
Inc. v. Cox, 487 F.3d 323, 328 (6th Cir. 2007)
(adjudicating physicians’ and clinics’ claims on behalf
of their abortion patients); Women’s Med. Prof. Corp. v.
Voinovich, 130 F. 3d 187, 191–92 n.3 (6th Cir. 1997)
(same).
B. Permanent Injunction – Success on the
Merits
To be entitled to permanent injunctive relief,
Plaintiffs must first show they succeeded on the merits
of their constitutional challenge to the Act.

App. 75
1. Legal Framework
a. The Undue Burden Test
In the nearly half century since Roe v. Wade
recognized the Fourteenth Amendment right to decide
whether or not to terminate a pregnancy, the Supreme
Court has addressed abortion regulations on several
occasions. This court’s decision is controlled by the
precepts articulated in those opinions. Specifically,
three basic principles arising from Planned Parenthood
of Southeastern Pa. v. Casey guide this court. 505 U.S.
833 (1992). In that case, the Supreme Court affirmed
the essential holding of Roe. Id. at 846.
First is a recognition of the right of the woman
to choose to have an abortion before viability and
to obtain it without undue interference from the
State. Before viability, the State’s interests are
not strong enough to support a prohibition of
abortion or the imposition of a substantial
obstacle to the woman’s effective right to elect
the procedure. Second is a confirmation of the
State’s power to restrict abortions after fetal
viability, if the law contains exceptions for
pregnancies which endanger the woman’s life or
health. And third is the principle that the State
has legitimate interests from the outset of the
pregnancy in protecting the health of the woman
and the life of the fetus that may become a child.
Id. In this case the Court turns its focus to the first and
third principles.

App. 76
According to this framework, before viability, a
state may not forbid elective abortion entirely. See
Gonzales v. Carhart, 550 U.S. 124, 146 (2007) (quoting
Casey, 505 U.S. at 879); see also Stenberg v. Carhart,
530 U.S. 914, 921 (2000). Further, a state “may not
impose upon this right an undue burden, which exists
if a regulation’s ‘purpose or effect is to place a
substantial obstacle in the path of a woman seeking an
abortion before the fetus attains viability.’” Gonzales,
550 U.S. at 146 (quoting Casey, 505 U.S. at 878). But a
state is not left with no power to regulate. Rather,
“[r]egulations which do no more than create a
structural mechanism by which the State . . . may
express profound respect for the life of the unborn are
permitted, if they are not a substantial obstacle to the
woman’s exercise of the right to choose.” Id. (quoting
Casey, 505 U.S. at 877) (internal quotation marks
omitted).
In 2016 the Supreme Court elaborated on
pre-viability regulations. See Whole Woman’s Health v.
Hellerstedt, 136 S. Ct. 2292 (2016). The Court
reiterated that “a statute which, while furthering [a]
valid state interest, has the effect of placing a
substantial obstacle in the path of a woman’s choice
cannot be considered a permissible means of serving its
legitimate ends.” Id. at 2309 (quoting Casey, 505 U.S.
877) (internal quotation marks omitted). Specifically,
Casey “requires that courts consider the burdens a law
imposes on abortion access together with the benefits
those laws confer.” Id. The determination of whether a
state regulation is a substantial obstacle—and
therefore an undue burden—must be assessed in
relation to the benefits that the regulation provides. Id.

App. 77
Where a regulation’s burdens exceed its benefits, the
regulation constitutes a substantial obstacle to a
woman’s choice and cannot withstand constitutional
challenge. Id.
b. Second-Trimester Abortion Jurisprudence
Plaintiffs rely heavily on two Supreme Court cases
in which the Court reviewed laws intended to ban
Dilation and Extraction (“D&X”) abortions, otherwise
known as partial-birth abortions. See Stenberg v.
Carhart, 530 U.S. 914 (2000); Gonzales v. Carhart, 550
U.S. 124 (2007). Both cases are instructive. Nebraska’s
statute in Stenberg was found to be unconstitutional
because the language of the law was such that it
prohibited not only D&X abortions, but also could be
read to ban the standard D&E abortion. See Stenberg,
530 U.S. at 930 (“[I]t ‘imposes an undue burden on a
woman’s ability’ to choose a D&E abortion, thereby
unduly burdening the right to choose abortion itself.”)
(quoting Planned Parenthood of Southeastern Pa. v.
Casey, 505 U.S. 833, 874 (1992)). In striking down the
Nebraska law, the Court elaborated that using the
challenged law,
some present prosecutors and future Attorneys
General may choose to pursue physicians who
use [the standard] D&E procedures, the most
commonly used method for performing
previability second trimester abortions. All those
who perform abortion procedures using that
method must fear prosecution, conviction, and
imprisonment. The result is an undue burden
upon a woman’s right to make an abortion
decision.

App. 78
Id. at 945–46. Seven years later, the Supreme Court
upheld a federal statute specifically aimed at D&X
abortion procedures because the more narrowly-written
law “allows, among other means, a commonly used and
generally accepted method, so it does not construct a
substantial obstacle to the abortion right.” Gonzales,
550 U.S. at 165. The “other means” and “generally
accepted method” the Supreme Court refers to is the
standard D&E procedure without fetal-demise.
At least ten states other than Kentucky have
enacted fetal-demise laws similar to the H.B. 454. In
many of those states, similar challenges to that here
have been raised.2 In Alabama, the Eleventh Circuit
upheld a permanent injunction granted by the district
court enjoining Alabama from enforcing a similar
fetal-demise law. See West Ala. Women’s Ctr. v. Miller,
299 F. Supp. 3d 1244 (M.D. Ala. 2017), aff’d, West Ala.
Women’s Ctr. v. Williamson, 900 F.3d 1310 (11th Cir.
2018). The district court concluded that the law at
issue imposed an undue burden on women seeking
pre-viability D&E abortions and was thus
unconstitutional. Id.
In Arkansas, a federal district court issued a
preliminary injunction to enjoin a similar fetal-demise
law. The court found that if the law were to go into
effect, the fraction of women for whom the law is
relevant would immediately lose the right to obtain a

2

There have been no legal challenges raised to the fetal-demise
laws in Mississippi and West Virginia. The North Dakota clinic’s
lawyers are waiting for a decision from the Eighth Circuit on the
challenge to similar legislation in Arkansas.

App. 79
pre-viability abortion anywhere in the state after 14
weeks. Hopkins v. Jegley, 267 F. Supp. 3d 1024 (E.D.
Ark. 2017). Arkansas appealed the district court’s
grant of the preliminary injunction to the Eighth
Circuit which heard oral arguments on December 13,
2018.
The Kansas Court of Appeals affirmed a district
court’s grant of a temporary injunction that enjoined
fetal-demise legislation like that at issue here. Hodes
& Nauser MDs, P.A. v. Schmidt, 368 P.3d 667 (Kan. Ct.
App. 2016) (en banc). The Court of Appeals concluded
that, “[g]iven the additional risk, inconvenience,
discomfort, and potential pain associated with these
[fetal-demise] alternatives, some of which are virtually
untested, . . . banning the standard D&E, a safe
method used in about 95% of second-trimester
abortions, is an undue burden on the right to abortion.”
Id. at 678.
In Ohio, a federal district court issued a temporary
restraining order, pending an evidentiary hearing on
the motion for a preliminary injunction, as to
fetal-demise legislation. Planned Parenthood S.W. Ohio
Region v. Yost, No. 1:19-CV-00118 (S.D. Ohio March 26,
2019) (DN 34). In issuing that order, the court stated
that the “weight of legal authority favors” the
plaintiffs. Id. at 8. That court held an evidentiary
hearing as to the preliminary injunction beginning
April 10, 2019. On April 18, 2019, the federal district
court granted in part a motion for preliminary
injunction finding that the plaintiffs were likely to
succeed on the merits. Planned Parenthood S.W. Ohio
Region v. Yost, 2019 WL 1758488, at *16 (S.D. Ohio

App. 80
Apr. 18, 2019). The court concluded that the
fetal-demise legislation burdened a large fraction of
women seeking pre-viability, second trimester
abortions and was likely unconstitutional as written.
Id.
In Louisiana, a similar suit has been filed over
House Bill 1081 and other abortion regulations passed
by the Louisiana legislature. June Med. Servs. LLC v.
Gee, No. 3:16-CV-0444 (M.D. La. July 1, 2016).
An Oklahoma state district court enjoined
enforcement of fetal-demise legislation in 2015. Nova
Health Sys. v. Pruitt, No. CV-2015-1838 (Okla. Cty.
Dist. Ct. Oct. 28, 2015). The court considered the
Supreme Court’s precedents in Stenberg and Gonzales
and stated that those opinions weighed the state’s
asserted interests but still found the previous ban on
D&E abortions to be unconstitutional. Id. slip op. at
7–8. The court ruled that the state’s asserted interests
were legitimate but likely did not justify the law’s
burden on a woman’s right to terminate a pre-viability
pregnancy. Id. slip op. at 8. Accordingly, the court
granted a temporary injunction preventing the law
from taking effect. Id. slip op. at 12.
Finally, in Texas, a federal district court held a
bench trial and issued a permanent injunction
foreclosing enforcement of a law that imposed civil and
criminal penalties on physicians who performed
standard D&E abortions without first ensuring
fetal-demise. Whole Woman’s Health v. Paxton, 280 F.
Supp. 3d 938 (W.D. Tex. 2017). That court assumed,
without finding, that the interests asserted by
Texas were legitimate but also that “requiring a

App. 81
woman to undergo an unwanted, risky, invasive, and
experimental procedure in exchange for exercising her
right to choose an abortion” constituted a substantial
burden. Id. at 953. Consequently, the court concluded
the law was facially unconstitutional and declared it
void. Id. at 954. The State appealed that decision to the
Fifth Circuit which heard oral arguments on November
5, 2018. On March 13, 2019, the Fifth Circuit panel
issued a stay, explaining that the court would not
resolve the appeal until the Supreme Court disposes of
a Louisiana abortion case concerning admitting
privileges before it on writ of certiorari. Whole Woman’s
Health v. Paxton, No. 17-51060 (5th Cir. 2019) (Doc.
No. 00514871170).
In Paxton, the court aptly summarized a district
court’s role when faced with such a decision: “Once the
Supreme Court has defined the boundaries of a
constitutional right, a district court may not redefine
those boundaries. Further the role of the district court
is to preserve a right, not to search for a way to evade
or lessen the right.” Paxton, 280 F. Supp. 3d at 945. As
such, the Stenberg and Gonzales decisions control, and
the evolving fetal-demise litigation in the lower courts
inform this constitutional challenge. Just as the law at
issue in Paxton, H.B. 454 “has the undisputed effect of
banning the standard D&E procedure when performed
before fetal demise,” because of the extensive burdens
that accompany the law. Id. The Supreme Court’s
determination that “laws with the effect of banning the
standard D&E procedure result in an undue burden
upon a woman’s right to have an abortion and are
therefore unconstitutional” is binding. Id.

App. 82
2. The Interests of the Commonwealth of
Kentucky
One requirement that Casey and its progeny
establish for pre-viability regulations is that a state
regulation of the abortion procedure must be
substantiated by a legitimate or valid purpose. The
Commonwealth argues that H.B. 454 protects the
ethics, integrity, and reputation of the medical
community and expresses respect for the dignity of
human life—interests, it notes, advanced by the federal
law upheld in Gonzales. [DN 119 at 4]. Plaintiffs do not
dispute the legitimacy of those interests. [DN 118 at 30
n.32].
Indeed, the Supreme Court said in no uncertain
terms that “the government ‘has an interest in
protecting the integrity and ethics of the medical
profession.’” Gonzales v. Carhart, 550 U.S. 124, 157
(2007) (quoting Washington v. Glucksberg, 521 U.S.
702, 731 (1997)). The Court also reaffirmed that “the
State, from the inception of the pregnancy, maintains
its own regulatory interest in protecting the life of the
fetus that may become a child[.]” Id. at 158.
But the fact that the Act furthers legitimate state
interests does not end this constitutional inquiry. Even
though the act may further a legitimate state interest,
a pre-viability abortion restriction must still survive
the undue burden test. See Whole Woman’s Health v.
Hellerstedt, 136 S. Ct. 2292, 2309 (“[A] statute which,
while furthering [the interest in potential life or some
other] valid interest, has the effect of placing a
substantial obstacle in the path of a woman’s choice
cannot be considered a permissible means of serving its

App. 83
legitimate ends.”) (citing Planned Parenthood of
Southeastern Pa. v. Casey, 505 U.S. 833, 877 (1992));
W. Ala. Women’s Ctr. v. Williamson, 900 F.3d 1310,
1320–21 (11th Cir. 2018). The court now considers the
burden imposed on women.
3. Burden on Women
Plaintiffs outline in detail all of the burdens
attendant to the proposed fetal-demise procedures. As
a summation of all the problems with the proposed
fetal-demise procedures, Plaintiffs offered the
testimony of Dr. Franklin, one of the named Plaintiffs.
Dr. Franklin explained that because of the burdens the
Act would impose, both ethically and legally, she and
her colleague Dr. Bergin will stop performing standard
D&E abortions if the Act goes into effect. Such a
decision by these doctors would render abortions
unavailable within the state of Kentucky to women
who are 15 weeks pregnant.
The Commonwealth, in contrast, says the Act does
not impose the burdens articulated by Plaintiffs
because there are three methods by which abortion
providers can safely and reliably cause fetal-demise
before performing a D&E procedure: (1) digoxin
injection; (2) potassium chloride injection; and
(3) umbilical cord transection. It is necessary to discuss
each of the Commonwealth’s proposed methods of
fetal-demise to explain why each is an unusable
workaround.
a. Digoxin Injections
The Commonwealth’s first proposed method is the
use of digoxin injections—the least technically

App. 84
challenging but also the least reliable. To inject
digoxin, physicians begin by using an ultrasound
machine to visualize the woman’s uterus and the fetus.
The physician then inserts a long surgical needle
through the patient’s skin, abdomen, and uterine
muscle, to inject digoxin into the fetus. Although such
injections are not terribly difficult to perform, as it can
also be administered into the amniotic fluid, it is still
not a feasible option for fetal-demise for several
reasons.
First, and most importantly, digoxin injections are
not reliable for inducing fetal-demise. When injected
into the fetus or amniotic fluid, digoxin has a failure
rate ranging between 5% and 20%. Tr. Vol. I 62:5–13
[DN 106]; Tr. Vol. II 53:6–54:18 [DN 107]; Tr. Vol. IV
41:10–13 [DN 103]. If the first dose of digoxin fails to
cause fetal-demise, the Act would require an abortion
provider to either inject a second dose or try an
alternative method of fetal-demise. There is no medical
literature on the proper dosage for a second digoxin
injection or the potential risks associated with another
injection. Tr. Vol. I. 66:16–67:2 [DN 106]; Tr. Vol. II
56:8–21 [DN 107]; Tr. Vol. III-B 102:5–19 [DN 102]. As
such, successive digoxin injections would subject a
patient seeking a D&E to an experimental medical
procedure. Tr. Vol. I 67:3–9 [DN 106].
Second, a variety of factors affect whether a
provider is actually able to inject digoxin into the fetus
or amniotic fluid—placental positioning, fetal
positioning, obesity, and the presence of uterine
fibroids or cesarean-section scars can make such
injections more difficult, if not impossible, to

App. 85
administer. Tr. Vol. I 58:21–59:13 [DN 106]; Tr. Vol. II
39:1–19 [DN 107]; Tr. Vol. III-B 103:12–15, 104:3–13
[DN 102]; Tr. Vol. IV 99:17–24 [DN 103]. Further,
digoxin cannot be administered to women with known
contraindications. Tr. Vol. I 59:24–61:22 [DN 106].
Third, digoxin injections are essentially
experimental for women before 18 weeks of pregnancy,
and about 50% of second-trimester abortions in
Kentucky are performed before 18 weeks of pregnancy.
See PX 128 (summarizing data of EMW’s
second-trimester abortion procedures); Tr. Vol. II
56:22–24 [DN 107]. The vast majority of studies on
digoxin injections focus on pregnancies at or after 18
weeks. Only a few studies include cases of women at 17
weeks of pregnancy and no study has been done on the
efficacy, dosage, or safety of digoxin injections before 17
weeks of pregnancy. Tr. Vol. I 67:25–68:9 [DN 106]; Tr.
Vol. IV 114:23–115:3 [DN 103]. Consequently,
requiring digoxin use before 18 weeks would force
patients to undergo an experimental and potentially
harmful medical procedure without any associated
benefits.
Fourth, digoxin injections subject patients to
increased health risks. The parties’ experts agreed that
digoxin injections are associated with heightened risks
of infection, extra mural delivery, vomiting, and
hospitalization, compared to standard D&E alone. The
best studies submitted to the judicial record support
this conclusion about the relative safety of digoxin
injections. The court finds that even when
administered successfully after 18 weeks, digoxin

App. 86
injections carry the abovementioned significant, added
health risks to the standard D&E procedure.
Finally, additional logistical and emotional burdens
are associated with a digoxin injection. Digoxin works
slowly—sometimes taking up to 24-hours if effective—
requiring physicians to administer the injection the day
before the scheduled D&E. As such, mandating a
digoxin injection prolongs the length of a D&E abortion
from one day to two, requiring a woman to pay
additional costs—child care, transportation, overnight
travel, and others—to have the procedure. This burden,
of having to make multiple trips for the procedure, is
especially pronounced for low-income women. Although
Plaintiffs do not keep financial records for D&E
abortion patients, the court heard testimony about the
poverty levels in Kentucky, Tr. Vol. III-A 27:13–29:16
[DN 108], and the poverty rates among abortion
patients nationally. Id. 33:20–35:3. The court is willing
to draw the conclusion that many of the women
receiving abortions at EMW are low-income and will
suffer adverse economic consequences if the D&E
procedure is prolonged to two days. Id. 35:12–25.
Additionally, there are emotional burdens associated
with digoxin injections. Any needle procedure,
particularly one with a large needle and no correlative
medical benefit, will cause emotional distress for some
patients. Tr. Vol. I 120:16–121:4 [DN 106].
Because of the unreliability of the procedure,
unknown risks associated with second doses, unknown
risks for women before 18 weeks of pregnancy, additive
risk of complications, increased travel burden, and the
pain and invasiveness of the procedure, the court finds

App. 87
that a digoxin injection is not a feasible method of
inducing fetal-demise before performing the evacuation
phase of a D&E abortion. The court concludes that in
all instances the procedure would create a substantial
obstacle to a woman’s right to an abortion.
b. Potassium Chloride Injections
The Commonwealth’s second proposed fetal-demise
method is the intra-fetal or intra-cardiac injection of
potassium chloride. Like digoxin injections, physicians
administering potassium chloride injections begin by
using an ultrasound machine to visualize the patient’s
uterus and fetus. The physician then inserts a long
surgical needle through the woman’s skin, abdomen,
and uterine muscle, and then into either the fetus or,
more specifically, the fetal heart. When the injection is
administered directly to the fetal heart, fetal-demise is
achieved almost immediately. However, based on the
evidence, the court finds that potassium chloride
injections are not a feasible method of causing
fetal-demise before standard D&E procedures for
several reasons.
First, and most importantly, injecting potassium
chloride requires great technical skill and is an
extremely challenging procedure to perform. Tr. Vol. I
228:18–231:12 [DN 106]. A provider’s goal is to inject
the substance directly into the fetal heart, which at
approximately 15–16 weeks is about the size of a dime.
Even around 20–22 weeks, the fetal heart remains very
small, about the size of a quarter. Id. at 212:6–12; see
also id. at 88:1–3; Tr. Vol. IV 23:13–18, 317:17–20 [DN
103]. It is undisputed that Plaintiffs have not been
trained to perform this procedure. Tr. Vol. II 39:20–25

App. 88
[DN 107]; Bergin Depo., 120:1–12, 121:4–13 [PX 420].
Intra-fetal and intra-cardiac potassium chloride
injections are not taught in OB-GYN residencies or in
family-planning fellowships, such as the ones Plaintiffs
completed. Tr. Vol. I 88:4–13 [DN 106]; Tr. Vol. II
39:20–40:12, 40:2–22 [DN 107]; Tr. Vol. III-B 111:7–9
[DN 102]; Tr. Vol. IV 107:5–7, 314:18–315:17 [DN 103].
In fact, these injections are generally only taught in
subspecialist fellowship programs, such as
maternal-fetal medicine (“MFM”) and reproductive
endocrinology and infertility fellowships. Tr. Vol. I
88:14–89:5, 226:24–227:17 [DN 106]; Tr. Vol. II 40:1–12
[DN 107]; Tr. Vol. IV 259:21–260:12 [DN103]. These
fellows go through several years of highly supervised
and specialized training. The injection is typically used
by such subspecialists for selective reduction of
pregnancies in women with multiple gestations. Tr.
Vol. I 88:24–89:5 [DN 106].
It would be impossible for Plaintiffs to receive this
specialized training within Kentucky because no
hospital in the Commonwealth offers this type of
training. Tr. Vol. II 110:19–111:4 [DN 107]. Even if this
subspecialist training were available in Kentucky, the
Plaintiff’s expert, Dr. Lynn Simpson, credibly testified
that it could take years to see enough patients and
perform enough supervised injections to be competent
to perform the procedure. Tr. Vol. I 244:25–245:22 [DN
106]; Tr. Vol. IV 315:18–316:17 [DN103]. Based on the
length of time it would take to learn the procedure
and the lack of training available within the
Commonwealth, the court finds that Plaintiffs have no
practical way to learn how to perform this procedure
safely.

App. 89
Second, as with digoxin, potassium chloride
injections are not a feasible method because they
cannot be completed on every woman seeking a
standard D&E. Obesity, fetal and uterine position,
cesarean-section scar tissue, and uterine fibroids may
complicate or even prevent completely the
administration of the injections in many women. Tr.
Vol. I 94:7–12, 222:6–223:15 [DN 106]; Tr. Vol. IV
317:21–319:9 [DN 103]. Further, as conceded by the
Commonwealth’s expert, a correctly-administered
potassium chloride injection cannot be relied upon to
cause fetal-demise in every single case. Tr. Vol. IV
96:4–11 [DN 103].
Finally, again, like digoxin, potassium chloride
injections carry serious health risks to the woman.
Such injections increase the risk of uterine or other
internal organ perforation as well as the risk of
infection. Tr. Vol. I 94:13–95:1, 232:20–234:10 [DN
106]; see e.g., Tr. Vol. III-B 114:21–116:3 [DN 102]. An
additional risk associated with this procedure is the
potential harmful effect on the woman’s heart—
because potassium chloride has harmful effects on the
heart, inadvertently injecting it into the woman’s
circulation can cause cardiac arrest, though there is
only a single documented case. See e.g., Tr. Vol. I
95:2–16 (discussing PX 19) [DN 106]. These risks
would only be exacerbated by untrained physicians
performing the potassium chloride procedure.
As with digoxin injection, potassium chloride
injection is an unnecessary and potentially harmful
medical procedure with no counterbalancing medical
benefit for the woman. This procedure is technically

App. 90
very challenging and carries with it serious health
risks for the woman. Additionally, there is no practical
way for Plaintiffs to receive adequate training so that
they may perform these injections competently. This
being the case, the court finds potassium chloride
injection to be an unworkable method for physicians
attempting to induce fetal-demise before performing
the evacuation phase of a standard D&E abortion in
Kentucky. To the extent such an injection could or
would be used, the court finds that, like a digoxin
injection, the procedure would create a substantial
obstacle to a woman’s right to an abortion based on the
significant health risks associated therewith.
c. Umbilical Cord Transection
The Commonwealth’s final proposed method of
fetal-demise is umbilical cord transection. To perform
this procedure, the provider dilates the woman’s cervix
enough to allow the passage of instruments to transect
the cord. Once the cervix is dilated, the physician uses
an ultrasound for guidance and punctures the amniotic
membrane, causing the amniotic fluid to drain from the
uterus. Then, the physician inserts an instrument into
the uterus, locates, and grasps the cord and, with
another instrument, cuts the cord. Tr. Vol. I
105:2–108:9 [DN 106]; Tr. Vol. II 46:14–47:10 [DN 107].
At this stage in the second-trimester, the umbilical
cord is about the width of a piece of yarn. Tr. Vol. I
105:20–24 [DN 106]. The physician then waits for the
fetal heartbeat to stop, which generally occurs within
10 minutes. The physician then may perform the
evacuation phase of the standard D&E. Several factors

App. 91
render this procedure an unworkable method for
inducing fetal-demise.
First, several aspects of the procedure make cord
transection a technically difficult procedure—lack of
visualization following the rupture of the amniotic sac,
the shrinking size of the uterus, and the small size of
the umbilical cord. As to the lack of visualization,
before the amniotic sac is punctured, the physician can
easily visualize the fetus and umbilical cord due to the
contrast on the ultrasound between those components
and the amniotic fluid. However, once a physician
ruptures the amniotic sac and the fluid begins to drain,
they can no longer rely on an ultrasound image to
visualize the different components of the fetus and
guide the instruments to the cord—the provider
essentially performs the transection blind. Tr. Vol. I
106:8–14 [DN 106]; Tr. Vol. II 47:4–7, 50:14–25 [DN
107]. Also, because of the rupturing of the amniotic sac,
the uterus begins to contract bringing the fetus and the
umbilical cord together, no longer separated by the
buoyant amniotic fluid. Thus, the physician must
identify, reach, and cut the cord with a surgical
instrument without visualization or space between
different types of tissue. This poses another hurdle for
the provider because if they cut fetal tissue instead of,
or in addition to the cord, they have arguably violated
the Act. Tr. Vol. 1 106:24–107:6 [DN 106]; Tr. Vol. II
47:23–48:9 [DN 107]. Finally, the blind procedure and
close nature of all the uterine materials make locating
the umbilical cord, roughly the width of a piece of yard,
technically very difficult. Tr. Vol. I 105:20–24 [DN 106].

App. 92
Second, cord transection is not a feasible method for
fetal-demise because it is essentially an experimental
procedure that carries no medical benefits to the
patient. The Commonwealth claims that cord
transection is a viable, safe option to cause fetal-demise
based on a single study—a retrospective case series
without any control group. Tr. Vol. I 109:22–112:7 [DN
106]. In addition to providing a low level of evidence,
the study only looked at umbilical cord transections
performed by two providers at a single location. Tr. Vol.
III-B 118:10–119:11 [DN 102]. The study does not
provide the type or quality of evidence that warrants
reaching generalized conclusions about the feasibility
or reliability of umbilical cord transection, particularly
in light of the serious risks that are outlined below. Id.
at 119:12–16.
Umbilical cord transection carries serious health
risks, including blood loss, infection, and uterine
injury. A physician may have to make multiple passes
into the uterus while attempting to locate the umbilical
cord. In doing so, each pass increases the risk of
infection and uterine damage. Tr. Vol I 107:7–108:2
[DN 106]; Tr. Vol. II 51:7–10 [DN 107]. As performing
cord transection involves blindly searching for the
umbilical cord, the risk of these complications would be
in addition to the risks inherent to the standard D&E
alone. Additionally, while locating and transecting the
cord, then waiting for the fetal heart to stop, the uterus
will be contracting and the placenta will begin to
separate and bleeding will occur. Tr. Vol. I 107:15–21
[DN 106]; Tr. Vol. II 47:1–22, 51:4–7 [DN 107].

App. 93
For the reasons set out above, the court finds that
umbilical cord transection as a method of fetal-demise
prior to the evacuation phase of a standard D&E would
impose a substantial obstacle to a woman’s right to
pre-viability abortion.
4. Balancing of Benefits and Burdens –
Application of the Undue Burden Test
As stated above, to determine whether a law
regulating abortion constitutes an undue burden on the
right to terminate a pregnancy pre-viability, the court
must balance the state’s interests underlying a law
against the obstacles imposed by the law to women’s
access to abortion. Where a regulation’s burdens exceed
its benefits, the regulation constitutes a substantial
obstacle to a woman’s choice—such a regulation cannot
withstand constitutional challenge. See Whole Woman’s
Health v. Hellerstedt, 136 S. Ct. 2292, 2309 (2016).
Having just outlined the burdens associated with
the Act, it is necessary to further discuss one of the
Commonwealth’s asserted interests and correlative
benefit. The Commonwealth asserts that its interest in
fetal dignity is bolstered because, according to its
expert witness, the fetuses subjected to standard D&E
abortions can feel pain.
The court heard testimony from competing experts,
Dr. Colleen Malloy for the Commonwealth and Dr.
Steven Ralston for the Plaintiffs. Dr. Malloy is
employed as a neonatologist at Northwestern
University. Importantly, Dr. Malloy has never
performed a procedure on a pregnant woman or a fetus.
Tr. Vol. IV 201:6–14 [DN 103]. Dr. Malloy testified that

App. 94
a fetus can certainly feel pain by 22 weeks and possibly
as early as 15 weeks. Id. at 150:16–19, 159:13–22. Dr.
Malloy described the onset of fetal pain as a dimmer
switch turning on gradually over the course of the
fetus’s development. Id. at 150:23–151:21. In other
words, she explained, though developing neural
elements necessary for pain perception may be
immature, they are not inactive. Dr. Malloy testified
that two organizations share her opinion with respect
to fetal pain—the American Academy of Pro-Life
Obstetricians and Gynecologists and the Christian
Medical and Dental Association. Id. 159:23–160:4.
Dr. Ralston, a well-credentialed MFM who chairs
the OB-GYN Department at the University of
Pennsylvania, testified that the overwhelming medical
consensus is contrary to that of Dr. Malloy—that fetal
pain perception is impossible before 24 weeks. Id. at
270:11–285:9. Dr. Ralston expressly testified that Dr.
Malloy’s opinion “is a minority outlier opinion.” Id. at
274:13–22. In support of this conclusion, Dr. Ralston
cited several organizations that share his opinion,
including the Royal College of Obstetricians and
Gynecologists and the American College of
Obstetricians and Gynecologists, two reputable medical
organizations. Id. at 310:4–311:118. Dr. Ralston
explained that this consensus is based on the
understanding in the scientific community that fetal
pain perception requires consciousness, which in turn
requires two elements absent in a fetus before 24
weeks: intact connections from the periphery to the
thalamus and then to the cortex, and a sufficiently
developed cerebral cortex. Id. at 270:11–285:12,
310:4–312:9, 340:5–15. Dr. Ralston testified that the

App. 95
existence of a developed cortex and intact
neurocircuitry—the above listed connections—are
necessary for any degree of pain perception, thus
refuting Dr. Malloy’s dimmer switch theory. Further,
Dr. Ralston testified that evidence suggests pain
perception is unlikely at any point during pregnancy
due to factors that preclude consciousness in utero. Id.
at 285:15–297:3, 340:5–23.
Based on Dr. Ralston’s credible testimony, the
extensive studies cited therein, and the consensus of
the vast majority of the medical community, the court
concludes that it is very unlikely that a fetus can feel
pain before 24 weeks. Because H.B. 454 concerns
second-trimester abortions performed between 15 and
21.6 weeks, fetal pain is not a concern. The
Commonwealth’s argument that H.B. 454 provides a
benefit of preventing fetal pain from the standard D&E
abortion fails.
Still yet, the Commonwealth asserted two interests
advanced by the Act that were recognized as legitimate
in Gonzales—protecting the ethics, integrity, and
reputation of the medical community and expressing
respect for the dignity of human life even in the
absence of fetal pain. However, Kentucky cannot
pursue these interests in a way that completely denies
women the constitutionally protected right to
terminate a pregnancy before the fetus is viable. Here,
the Commonwealth avers that its interests are
sufficiently strong to justify the burdens the Act would
impose on Kentucky women because they would retain
the ability to terminate pregnancy at or after 15 weeks
by first undergoing a fetal-demise procedure. However,

App. 96
the Commonwealth’s argument is premised on the idea
that it is feasible for Plaintiffs to safely and reliably
utilize the three proposed fetal-demise methods
examined above. For the reasons discussed above—the
methods’ associated risks, technical difficulty, untested
nature, time and cost associated with performing them,
and the lack of training opportunities—the court
concludes on the current record that the proposed
fetal-demise methods are not feasible for inducing
fetal-demise before standard D&E at EMW. See W. Ala.
Women’s Ctr. v. Williamson, 900 F.3d 1310, 1327 (11th
Cir. 2018) (concluding that based on the findings the
proposed fetal-demise methods place a substantial
obstacle in the path of a woman’s right to a
pre-viability abortion). Consequently, if the court were
to allow the Act to go into effect, Kentucky women
would lose their right to pre-viability abortion access at
or after 15 weeks. The Supreme Court specifically
addressed such a scenario and held that “[b]efore
viability, the State’s interests are not strong enough to
support a prohibition of abortion or the imposition of a
substantial obstacle to the woman’s effective right to
elect the procedure.” Planned Parenthood of
Southeastern Pa. v. Casey, 505 U.S. 833, 846 (1992).
Consequently, the Commonwealth’s interests, while
legitimate, are not sufficient to justify such a
substantial obstacle to the constitutionally protect
right to terminate a pregnancy before viability.
5. Intent Requirement
The scienter requirement does not save the Act from
its constitutional shortcomings. The Commonwealth
contends that the intent requirement in H.B. 454

App. 97
shields from liability physicians who unintentionally
cut fetal tissue when attempting to comply with the
Act. Specifically, the Commonwealth argues that
because of this intent requirement, “there can be no
criminal penalties when a physician performs a D&E
procedure under a good-faith, but mistaken, belief that
fetal demise has occurred.” [DN 119 at 35]. But this
assurance leaves the provider at the mercy of a
prosecutor’s discretion. The provider would face this
risk every time they performed a fetal-demise
procedure, particularly umbilical cord transection.
Given that a prosecution and conviction could impose
upon a physician a criminal sentence of up to five years
imprisonment and other potential disciplinary and
licensing action, it is unsurprising that Dr. Franklin
testified that she would stop performing D&E abortions
after 15 weeks if the Act went into effect. This
deterrence of physicians, like Dr. Franklin, from
providing D&E abortions thereby denies Kentucky
women access to pre-viability abortions.
6. Large Fraction Test
To prevail on the facial challenge to H.B. 454,
Plaintiffs must demonstrate that “in a large fraction of
cases in which [the provision at issue] is relevant, it
will operate as a substantial obstacle to a woman’s
choice to undergo an abortion.” Planned Parenthood of
Southeastern Pa. v. Casey, 505 U.S. 833, 895 (1992). In
the large-fraction test, the court uses as the
denominator those cases in which the law at issue is
relevant which is a narrower class than “pregnant
women” or “the class of women seeking abortions.”
Whole Woman’s Health v. Hellerstedt, 136 S. Ct. 2292,

App. 98
2320 (2016) (quoting Casey, 505 U.S. at 894–95). As
such, the court rejects the Commonwealth’s argument
that the denominator should be all women seeking
abortions, not just women seeking a D&E abortion.
The court makes the following findings of fact
regarding the fraction of women effected by the Act.
EMW is the sole licensed outpatient abortion facility
located in Kentucky. Each year, EMW provides more
than 3,000 abortions. PX 120. During 2016, 17.47% of
those abortions were performed by the standard D&E
procedure. PX 120; PX 129. Standard D&E accounts for
over 99% of second-trimester abortions in Kentucky.
Tr. Vol. II 21:21–23:6 [DN 107]; PX 120. The
only alternatives to D&E—induction of labor or
hysterotomy—are rare and must be performed in a
hospital setting. Tr. Vol. I 36:1–38:22 [DN 106]. A
strong majority of standard D&Es currently occur from
15.0 to 17.0 weeks LMP. PX 128. Of the 537 D&Es
reported by EMW Louisville in 2016, 57.9% took place
during these earliest weeks of the second-trimester. Id.
The court determines that H.B. 454 is relevant for
all Kentucky women who select standard D&E through
the second-trimester and that the Act causes an undue
burden for a large fraction of these women. In
Kentucky in 2016, 537 women had a standard D&E. PX
129. H.B.454 would unduly burden 100% of these
women because, if the Act goes into effect, standard
D&E abortions will no longer be performed in the
Commonwealth due to ethical and legal concerns
regarding compliance with the law.
The Commonwealth argues that if the court uses
as the denominator only the women seeking a

App. 99
second-trimester D&E abortion, the Act still does not
affect a large fraction of women because not all women
who seek a D&E abortion will find the Act to be a
substantial obstacle. The Commonwealth claims that
because not all women will suffer the complications
associated with the fetal-demise procedures, the large
fraction test is not met. [DN 119 at 40–41]. However,
the court finds that under the Act, all women seeking
a second-trimester abortion at and after 15 weeks
would have to endure a medically unnecessary and
invasive procedure that may increase the duration of
an otherwise one-day standard D&E abortion. Further,
the court heard testimony that the individual providers
will no longer continue to offer standard D&Es if the
Act goes into effect. That is a substantial obstacle and
it affects all such women.
Because the Act affects all second-trimester D&E
abortion procedures in Kentucky, the relevant class of
women here consists of all women in Kentucky who are
15 to 21.6 weeks pregnant and seek an outpatient
second-trimester D&E abortion. Plaintiffs successfully
demonstrated that H.B. 454 would operate as an undue
burden for a large fraction of women for whom the
provision is an actual, rather than irrelevant,
restriction.
7. Out-of-State Abortion Clinics
The Commonwealth made an argument at trial that
the existence of out-of-state abortion clinics would
provide a workaround if EMW were to stop performing
D&E abortions. This argument is frivolous and can be
addressed succinctly. The Commonwealth cannot enact
unconstitutional laws and expect other states to

App. 100
compensate for its constitutional infirmity. Jackson v.
Women’s Health Org. v. Currier, 760 F.3d 448, 457
(5th Cir. 2014) (“[A] state cannot lean on its sovereign
neighbors to provide protection of its citizens’ federal
constitutional rights”), cert. denied, 136 S. Ct. 2536
(2016); see also EMW Women’s Surgical Ctr., P.S.C. v.
Glisson, No. 3:17-CV-00189, 2018 WL 6444391, at *26
(W.D. Ky. Sept. 28, 2018) (stating that “the availability
of abortion services in other states does not cure the
infirmities presently imposed by Kentucky law”).
Therefore, the availability of the standard D&E
procedure in neighboring states is irrelevant and in no
way affects this constitutional challenge.
For the foregoing reasons, Plaintiffs successfully
showed that H.B. 454 operates as an undue burden on
a woman’s right to a second-trimester pre-viability
abortion—an unconstitutional enactment under
current precedent. As such, Plaintiffs satisfied the first
of the four requirements for a permanent injunction.
C. Permanent Injunction – Irreparable Harm
As discussed above, Plaintiffs successfully showed
the Act will operate as a substantial obstacle to a
woman’s right to an abortion before the fetus
reached viability—a violation of a woman’s Fourteenth
Amendment rights to privacy and bodily integrity. “[I]f
it is found that a constitutional right is being
threatened or impaired, a finding of irreparable injury
is mandated.” Am. Civil Liberties Union of Ky. V.
McCreary Cty., 354 F.3d 438, 445 (6th Cir. 2003). Thus,
enforcement of H.B. 454 will cause immediate and
irreparable harm to Plaintiffs’ patients’ constitutional
rights as a matter of law. See Whole Women’s Health v.

App. 101
Paxton, 264 F. Supp. 3d 813, 824 (W.D. Tex. 2017)
(“The court concludes that Plaintiffs have established
that absent a temporary restraining order they will
suffer irreparable harm by being unable to access the
most commonly used and safest previability-secondtrimester-abortion procedure[.]”); Hopkins v. Jegley,
267 F. Supp. 3d 1024, 1068–69 (E.D. Ark. 2017)
(concluding that enforcement of the D&E mandate
would inflict irreparable harm on the plaintiff and his
patients “as there is no adequate remedy at law”).
If a permanent injunction does not issue, the
fraction of women for whom H.B. 454 is relevant would
immediately suffer irreparable harm by losing the right
to obtain a pre-viability abortion anywhere in the
Commonwealth of Kentucky after 15 weeks. As such,
the second requirement for a permanent injunction is
satisfied.
D. Permanent Injunction – Remaining Factors
Having shown success on the merits and irreparable
harm to the clinic’s patients, Plaintiffs must also show
that the requested injunction would not cause
substantial harm to others and that the public interest
would be served by issuance of the injunction. Jolivette
v. Husted, 694 F.3d 760, 765 (6th Cir. 2012). Plaintiffs
do so easily. As to the harm to others, if an injunction
does not issue, Kentucky women would lose the right to
obtain a pre-viability abortion anywhere in the
Commonwealth beginning at 15 weeks. If an injunction
does issue, an unconstitutional law passed by Kentucky
legislators will not go into effect. Accordingly,
substantial harm to others will not result if the
injunction issues. Finally, as to the public interest, it is

App. 102
well-established that the public has no interest in the
enforcement of an unconstitutional law. See, e.g., G &
V Lounge, Inc. v. Michigan Liquor Control Comm’n, 23
F.3d 1071, 1079 (6th Cir. 1994); see also Am. Freedom
Def. Initiative v. Suburban Mobility Auth. For Reg’l
Transp., 698 F.3d 885, 896 (6th Cir. 2012) (“The public
interest is promoted by the robust enforcement of
constitutional rights[.]”).
III.

CONCLUSION

In reaching this decision, the court was guided by
Supreme Court precedent and lower courts’ opinions
resolving challenges to similar legislation. As
appropriately stated by the Eleventh Circuit, “[i]n our
judicial system, there is only one Supreme Court, and
we are not it. As one of the ‘inferior Courts,’ we follow
its decisions.’” W. Ala. Women’s Ctr. v. Williamson, 900
F.3d 1310, 1329 (11th Cir. 2018) (citing U.S. Const. art.
III § 1).
The Supreme Court’s holdings in Stenberg and
Gonzales direct a single result—the Commonwealth’s
interests in protecting the reputation of the medical
community and expressing respect for fetal life, while
legitimate, are insufficient to allow a law that would
act as a de facto ban on a woman’s right to an abortion
after 15 weeks to go into effect. The Commonwealth’s
legitimate interests do not allow the imposition of an
additional required medical procedure—an invasive
and risky procedure without medical necessity or
benefit to the woman—prior to the standard D&E
abortion. Here, Kentucky’s legitimate interests must
give way to the woman’s right. The Act, like the one at
issue in Paxton, “does more than create a structural

App. 103
mechanism by which the [Commonwealth] expresses
profound respect for the unborn. The Act intervenes in
the medical process of abortion prior to viability in an
unduly burdensome manner.” 280 F. Supp. 3d 938, 954
(W.D. Tex. 2017).
Because H.B. 454 “has the effect of placing a
substantial obstacle in the path of a woman’s
choice [, it] cannot be considered a permissible means
of serving its legitimate ends.” Planned Parenthood v.
Casey, 505 U.S. 833, 877 (1992). H.B. 454 is facially
unconstitutional for the foregoing reasons. Accordingly,
the court declares the Act void and will permanently
enjoin the Commonwealth from enforcing the Act.
/s/ Joseph H. Mckinley
Joseph H. McKinley Jr., District Judge
United States District Court
May 8, 2019

cc: counsel of record

App. 104

APPENDIX C
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
CIVIL ACTION NO: 3:18-CV-00224-JHM
[Filed: May 10, 2019]
__________________________________________
EMW WOMEN’S SURGICAL CENTER, )
P.S.C., et al.
)
)
PLAINTIFFS
)
)
V.
)
)
ADAM W. MEIER et al.
)
)
DEFENDANTS
)
__________________________________________)
JUDGMENT AND PERMANENT INJUNCTION
This matter having come before the Court for a
bench trial commencing on November 13, 2018 and
concluding on November 19, 2018, and the Court
having issued a Memorandum Opinion and Order on
this date, it is hereby
ORDERED and ADJUDGED as follows:
(1)

Judgment is entered in favor of Plaintiffs.
The Court declares that H.B. 454 violates the

App. 105
Fourteenth Amendment rights of Plaintiffs’
patients and, as such, is VOID.
(2)

Defendants and their officers, agents, and
employees, and those persons in active
concert or participation with Defendants who
receive actual notice of this Order, are
PERMANENTLY ENJOINED from
enforcing H.B. 454 by criminal proceeding,
administrative action or proceeding, or any
other means; penalizing any person for
failure to comply with H.B. 454 by criminal
proceeding, administrative action or
proceeding, or any other means; and
applying, imposing, or requiring compliance
with, implementing, or carrying out in any
way any part of H.B. 454.

(3)

This action is DISMISSED with prejudice.

/s/ Joseph H. Mckinley
Joseph H. McKinley Jr., District Judge
United States District Court
May 8, 2019

App. 106

APPENDIX D
NOT RECOMMENDED FOR PUBLICATION
No. 19-5516
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: June 24, 2020]
__________________________________________
EMW WOMEN’S SURGICAL CENTER,
)
P.S.C., on behalf of itself, its staff, and its
)
patients; ASHLEE BERGIN, M.D., M.P.H., )
on behalf of herself and her patients;
)
TANYA FRANKLIN, M.D., M.S.P.H.,
)
on behalf of herself and her patients,
)
)
Plaintiffs - Appellees,
)
)
v.
)
)
ERIC FRIEDLANDER, in his official
)
capacity as Acting Secretary of Kentucky’s )
Cabinet for Health and Family Services,
)
)
Defendant-Appellant,
)
)
THOMAS B. WINE, et al.,
)
)
Defendants.
)
__________________________________________)

App. 107
ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF KENTUCKY
ORDER
Before: MERRITT, CLAY, and BUSH, Circuit
Judges.
Daniel Cameron, the Attorney General of Kentucky,
moves to intervene as a defendant in this case
regarding the constitutionality of Kentucky House Bill
454, which prohibits physicians from administering a
dilation and evacuation abortion prior to fetal demise.
Defendant-Appellant Eric Friedlander, Acting
Secretary of Kentucky’s Cabinet for Health and Family
Services, has not responded to the motion.
Plaintiffs-Appellees EMW Women’s Surgical Center,
Dr. Ashlee Bergin, and Dr. Tanya Franklin oppose
intervention, and Cameron replies. For the reasons set
forth below, we DENY Cameron’s motion to intervene.
Plaintiffs first brought suit against a number of
Kentucky officials in their official capacities, including
then-Attorney General Andrew Beshear, just after H.B.
454 was signed into effect in April 2018. All but two of
the original defendants, including Attorney General
Beshear, were dismissed prior to trial. Attorney
General Beshear stipulated to his dismissal in May
2018, reserving all rights and claims on appeal. After
a five-day bench trial in November 2018, the district
court in May 2019 entered judgment for Plaintiffs and
an order permanently enjoining the enforcement of
H.B. 454. EMW Women’s Surgical Ctr., P.S.C. v. Meier,
373 F. Supp. 3d 807 (W.D. Ky. 2019). Then-Secretary

App. 108
of the Cabinet of Health and Family Services, Adam
Meier, appealed, and throughout fall 2019, the parties
submitted briefing to this Court. In January 2020,
upon a change in gubernatorial administrations,
now-Acting Secretary of the Cabinet of Health and
Family Services Eric Friedlander was substituted for
Meier as Defendant. Friedlander continued to press the
appeal in defense of H.B. 454, now represented by
lawyers from the office of newly elected Attorney
General Daniel Cameron, the current proposed
intervenor. The parties presented argument in this
case on January 29, 2020. On June 2, 2020, this Court
issued its opinion affirming the district court’s
judgment. EMW Women’s Surgical Ctr., P.S.C. v.
Friedlander, No. 19-5516, 2020 WL 2845687 (6th Cir.
June 2, 2020).
On June 11, 2020, the Attorney General moved to
intervene as of right or, in the alternative,
permissively, explaining that the Secretary had chosen
not to pursue rehearing en banc or petition for a writ of
certiorari and seeking to intervene as a defendant in
order to do so.1 The Attorney General tendered a brief
in support of rehearing en banc on June 16, 2020.
This Court reviews four factors in deciding whether
to grant a motion for intervention as of right. To
succeed on such a motion, the movant must
1

The dissent says that the Secretary is no longer actively litigating
this case. But the Secretary remains a party, and while he has not
filed a timely petition for rehearing en banc, there is and would be
nothing to prevent him from changing course and pursuing
certiorari, regardless of whether the Attorney General’s motion to
intervene was granted.

App. 109
demonstrate that: “1) the [motion] was timely filed;
2) the [movant] possesses a substantial legal interest in
the case; 3) the [movant’s] ability to protect its interest
will be impaired without intervention; and 4) the
existing parties will not adequately represent the
[movant’s] interest.” Blount-Hill v. Zelman, 636 F.3d
278, 283 (6th Cir. 2011); see also Fed. R. Civ. P.
24(a)(2). “Each of these elements is mandatory, and
therefore failure to satisfy any one of the elements will
defeat intervention under the Rule.” Id. While
ordinarily we construe the elements broadly in favor of
potential intervenors, see Coal. to Defend Affirmative
Action v. Granholm, 501 F.3d 775, 779 (6th Cir. 2007),
“a motion to intervene filed during the final stages of a
proceeding is not favorably viewed.” United States v.
BASF-Inmont Corp., 52 F.3d 326 (6th Cir. 1995)
(table); accord, e.g., Amalgamated Transit Union Int’l,
AFL-CIO v. Donovan, 771 F.2d 1551, 1552 (D.C. Cir.
1985).
Given the stage at which the Attorney General
moved to intervene, we are particularly mindful of the
requirement of timeliness. In assessing the timeliness
of a motion to intervene, we consider five factors:
1) the point to which the suit has progressed;
2) the purpose for which intervention is sought;
3) the length of time preceding the [motion]
during which the proposed intervenors knew or
should have known of their interest in the case;
4) the prejudice to the original parties due to
the proposed intervenors’ failure to promptly
intervene after they knew or reasonably should
have known of their interest in the case; and

App. 110
5) the existence of unusual circumstances
militating against or in favor of intervention.
Blount-Hill, 636 F.3d at 284 (quoting Jansen v. City of
Cincinnati, 904 F.2d 336, 340 (6th Cir. 1990)).
Considering the first factor, the Attorney General’s
motion to intervene in this case comes years into its
progress, after both the district court’s decision
and—more critically—this Court’s decision. We rarely
grant motions to intervene filed on appeal, and we
agree with the D.C. Circuit that “[w]here . . . the
motion for leave to intervene comes after the court of
appeals has decided a case, it is clear that intervention
should be even more disfavored.” Amalgamated Transit
Union Int’l, 771 F.2d at 1552; see also id. at 1553 n.5
(collecting cases “uniformly” finding such motions to be
untimely); accord 7C Charles Alan Wright & Arthur R.
Miller, Federal Practice and Procedure § 1916 (3d ed.
2020) (“There is even more reason to deny an
application made . . . after the judgment has been
affirmed on appeal.”). Otherwise, we provide potential
intervenors every incentive to sit out litigation until we
issue a decision contrary to their preferences,
whereupon they can spring to action. Perhaps this is
also why the Attorney General is unable to identify any
case in which this Court has granted a motion to
intervene following issuance of its decision and can
identify only two doing so across the whole of federal
jurisprudence. See Peruta v. City of San Diego, 824
F.3d 919 (9th Cir. 2016) (en banc); Day v. Apoliona, 505
F.3d 963 (9th Cir. 2007). Our own review of the case
law yields no more. This factor, then, points decisively
against intervention.

App. 111
Turning to the second factor, the Attorney General
seeks intervention for the purpose of filing a petition
for rehearing en banc. But this itself is “an
extraordinary procedure,” and not one that parties are
due as a matter of course, as is the case with an appeal.
6 Cir. I.O.P. 35(a). Review on certiorari is likewise “not
a matter of right.” Sup. Ct. R. 10.2 Moreover, it is
apparent that the foremost argument that the Attorney
General seeks to advance on rehearing is a third-party
standing argument that the Secretary elected not to
present to this Court on appeal, and that he did not
flesh out before the district court. At present, Supreme
Court precedent suggests this argument should be
denied. See Friedlander, 2020 WL 2845687, at *4 n.2
(collecting cases).
Regarding the third factor, the Attorney General
had ample notice of his interest in this case. Indeed,
when Plaintiffs filed their complaint, they named the
Attorney General as a defendant. And even accounting
for the fact that Attorney General Cameron himself
took office only after the initiation of this suit and the
stipulated dismissal of the Attorney General as a
defendant, Cameron was put on notice of his interest
when he swore his oath of office in December 2019,

2

Contrary to the dissent’s assertions, our denial of the Attorney
General’s motion to intervene does not prevent further review of
our decision on the merits. The parties and even the Attorney
General have had ample opportunity to seek further review. The
Secretary could have chosen to petition for rehearing en banc and
could still choose to petition for certiorari. The Attorney General
could have sought to intervene at an earlier date in order to
independently access that review. If the parties are now unable to
secure further review, it is only due to their own decisions.

App. 112
before this Court heard oral argument in the case and
seven months before its decision. Against these facts,
Attorney General Cameron contends that he could not
have been aware of his interest because, until recently,
the Secretary vigorously defended H.B. 454, with
lawyers from the Attorney General’s office defending
him. But there was every reason for the Attorney
General’s office to inquire into and prepare for the
Secretary’s intended course in the event of an adverse
decision prior to undertaking his representation of the
Secretary.3
The time for which the Attorney General has been
aware of his interest distinguishes this case from the
leading case in which a court of appeals has granted a
motion to intervene following issuance of its decision.
In Peruta v. County of San Diego, 824 F.3d 919, 940
(9th Cir. 2016), the Ninth Circuit allowed the State of
California to intervene even after issuing its decision
upon concluding that “California had no strong
incentive to seek intervention . . . at an earlier stage,
for it had little reason to anticipate either the breadth
of the panel’s holding or the decision of [the defendant]
not to seek panel rehearing or rehearing en banc.” In
this case, by contrast, there was every reason for the
Attorney General to anticipate our holding, as it not
only hewed close to the issues briefed by the parties,

3

The dissent contends that the Attorney General would have been
violating privilege had he sought to intervene earlier. But of
course, the Attorney General could have sought intervention
without disclosing his communications with the Secretary or could
have requested the Secretary’s permission to disclose those
communications, just as he has done in filing his current motion.

App. 113
but also substantially mirrored the holding of every
court to hear a challenge to a fetal-demise law to date.
As discussed, the Attorney General could also have
anticipated the Secretary’s decision regarding
petitioning for rehearing en banc and certiorari, given
that he himself represented the Secretary.
Turning then to the fourth factor, it is clear that
granting the Attorney General’s motion would
significantly prejudice Plaintiffs. As discussed,
Attorney General Cameron seeks to raise in his
petition for rehearing en banc a third-party standing
argument not raised before this Court and not argued
in any particulars before the district court. Yet the
Attorney General’s own office chose not to raise this
argument upon becoming aware that the Supreme
Court had granted certiorari in June Medical Services,
LLC v. Gee, 905 F.3d 787 (5th Cir. 2018), cert. granted,
140 S. Ct. 35 (2019). It was not addressed by the
parties at oral argument except in response to judges’
questioning, nor was it raised via a notice of
supplemental authorities filed pursuant to Federal
Rule of Appellate Procedure 28(j). This provides us
every reason to conclude that the parties and the
Attorney General himself—like the majority in this
case—thought that it presented no barrier to Plaintiffs’
claim. Now the Attorney General seeks to benefit from
this Court’s decision by asserting an argument first
raised by the dissent. This is not the purpose of a
motion to intervene, and we agree with Plaintiffs that
they “should not be required to respond to last-minute
argument-by-ambush.” (Pls. Resp. to Mot. to Intervene
at 11.)

App. 114
The prejudice to Plaintiffs, too, distinguishes this
case from those in which such delayed motions to
intervene have been granted. In Peruta, the plaintiffs
did not oppose intervention and so conceded the issue
of prejudice. 824 F.3d at 940. Here, Plaintiffs make no
such concession and, indeed, strongly oppose
intervention. In Day v. Apoliona, 505 F.3d 963 (9th Cir.
2007), the court’s decision hinged on the fact that
“granting the State of Hawaii’s Motion to Intervene
will not create delay by ‘inject[ing] new issues into the
litigation,’” as the State had already raised those issues
in prior amicus briefing, thus allowing the plaintiffs
their due opportunity to respond. Id. at 965 (alteration
in original) (quoting Alisal Water Corp., 370 F.3d 915,
921 (9th Cir. 2004)). In the case at bar, Plaintiffs have
had no opportunity to respond to the third-party
standing argument the Attorney General seeks to
raise, nor have they had any reason to anticipate it
based upon current Supreme Court precedent.
Finally, we do not think that unusual circumstances
militate in favor of intervention here—in fact, given the
unusual stage at which the Attorney General seeks to
intervene, we think just the opposite. The Attorney
General complains that the Supreme Court is soon to
issue its decision in June Medical Services, and that
decision may bolster its new third-party standing
argument. We are skeptical of the notion that the
Supreme Court will overturn decades of its own
precedent in such a manner. But even if the Attorney
General is correct, if June Medical Services contradicts
this Court’s decision, the Supreme Court’s decision will
prevail as a matter of course and this case need not be
further litigated on that basis.

App. 115
Taking these factors in sum, we are convinced that
the Attorney General’s motion to intervene is untimely.
Because the Attorney General has failed to show this
necessary element, we need not reach the remaining
elements that a proposed intervenor must show on
moving for intervention as of right.4 Likewise, because
timeliness is among our foremost considerations in
deciding whether to grant permissive intervention, the
Attorney General’s motion on that basis also fails. See
Fed. R. Civ. P. 24(b)(1) (“On timely motion, the court
may permit anyone to intervene who . . . has a claim or
defense that shares with the main action a common
question of law or fact.”) (emphasis added); see also
Blount-Hill, 636 F.3d at 287. Timeliness is likewise
required of a government party who seeks permissive
intervention, and so Federal Rule of Civil Procedure
24(b)(2) also does not require us to grant the Attorney
General’s motion here. Id. (“On timely motion, the court
may permit a . . . state governmental officer . . . to
intervene if a party’s claim or defense is based on . . . a
statute . . . administered by the officer . . . .”) (emphasis
added). We are thus left with no basis for granting the
Attorney General’s motion.

4

The dissent suggests that our decision contravenes our precedent
regarding state attorneys general’s legal interest in defending
their state laws. But this misrepresents our holding, as we do not
reach the issue of whether Attorney General Cameron has a
substantial legal interest in the subject matter of this case. Nor do
we question whether states’ attorneys general may appropriately
intervene to defend their states’ laws in some—or indeed, even in
many—situations. We simply conclude that the Attorney General’s
intervention in this particular case would be untimely.

App. 116
Accordingly, we DENY the Attorney General’s
motion to intervene and DISMISS his petition for
rehearing en banc.
JOHN K. BUSH, Circuit Judge, dissenting.
This odd case has become even odder. Plaintiffs
prevailed in a trial at which none of the people whose
constitutional rights were at stake were parties or even
witnesses. Now, after the judgment has been affirmed
on appeal, Plaintiffs want to keep away from court not
only the people they purport to represent, but also their
adversaries. Attorney General Daniel Cameron,
acting on behalf of the Commonwealth of Kentucky,
sought to intervene after Secretary Friedlander
declined to continue the appeal. Plaintiffs opposed the
intervention, and the majority sides with Plaintiffs.
This result inappropriately and prematurely cuts short
the adversarial process. What is more, it flies in the
face of our precedent allowing states’ attorneys general
to intervene on appeal in order to defend their states’
laws.
Contrary to what the majority holds, the party who
seeks to intervene, the Attorney General of Kentucky,
is no Johnny-come-lately. The Attorney General is the
same counsel who represented Secretary Friedlander in
this appeal, and Secretary Friedlander does not oppose
the substitution of the Attorney General to represent
the Commonwealth’s interests. Moreover, the Attorney
General’s arguments defending the substance of H.R.
454 are identical to those that Secretary Friedlander
made, and although the Attorney General’s challenge
to Plaintiffs’ standing is more developed than was
Secretary Friedlander’s, standing was objected to

App. 117
below. In any event, the question of whether we have
jurisdiction cannot be ignored, regardless of when the
issue was raised.
Plaintiffs’ opposition to the Attorney General’s
motion to intervene is an understandable strategy.
With the denial of this motion, there will be no one in
this case to defend the challenged state law. It is a
plaintiff’s dream case: what if every litigant who
successfully challenged the constitutionality of a state
law could bar the state attorney general from seeking
complete appellate review? With the Attorney General
denied the right to continue the appeal in defense of
the law, there is no one left to file a petition for
rehearing en banc on behalf of the Commonwealth’s
interests. Even more importantly, there is no one left
to file a petition for certiorari, since Secretary
Friedlander will not do so. As a result, regardless of
how the Supreme Court rules in its review of June
Medical Services, LLC v. Gee, 905 F.3d 787 (5th Cir.
2018), cert. granted, 140 S. Ct. 35 (2019)—a ruling that
may be issued any day now—the present case will not
be governed by the Supreme Court’s decision, even
though June Medical presents questions identical or
similar to issues in the present case. Without anyone in
court to defend H.B. 454, Plaintiffs’ challenge to that
law will succeed, even if our ruling in this case proves
to be directly contrary to the Supreme Court’s holding
in June Medical. This anomalous result would be the
outcome of the majority’s decision to deny the Attorney
General’s motion to intervene.
For these reasons and those stated below, I
respectfully dissent. The Kentucky Attorney General

App. 118
should be allowed to intervene so that the
Commonwealth’s interests can be defended through the
entire appellate process.
I.
Attorney General Cameron’s motion to intervene
comes to us in unusual circumstances. After the
Commonwealth appealed the district court’s judgment
in this case, Kentucky held elections. Andy Beshear,
who had been the Attorney General of the
Commonwealth, was elected Governor. In that same
election, Daniel Cameron was elected Attorney General
and thus is Governor Beshear’s successor in that office.
Less than a month before oral argument, Secretary
Friedlander, an appointee of Governor Beshear, was
substituted for former Secretary Meier as a defendant.
Secretary Friedlander took the same position in this
case as had his predecessor, and he retained Attorney
General Cameron to represent him at oral argument.
However, after we issued our panel decision, Secretary
Friedlander reversed course, advising Attorney General
Cameron that he would not seek rehearing or
certiorari. The Secretary’s decision meant that there
was no defendant left in the litigation that would
continue the appeal. Two days after learning that
Secretary Friedlander would no longer defend H.B.
454, Attorney General Cameron filed a motion to
intervene on behalf of the Commonwealth, seeking to
assert the Commonwealth’s interests in defending its
law.

App. 119
II.
The majority holds that the Attorney General’s
motion is too little, too late. I respectfully disagree.
Under Rule of the Federal Rules of Civil Procedure
24(a)(2), a motion to intervene of right should be
granted if the proposed intervenor establishes the
following:
(1) the motion to intervene is timely; (2) the
proposed intervenor has a substantial legal
interest in the subject matter of the case; (3) the
proposed intervenor’s ability to protect that
interest may be impaired in the absence of
intervention; and (4) the parties already before
the court may not adequately represent the
proposed intervenor’s interest.
United States v. Michigan, 424 F.3d 438, 443 (6th Cir.
2005) (citing Grutter v. Bollinger, 188 F.3d 394, 397–98
(6th Cir. 1999)). These four elements should be
“broadly construed in favor of potential intervenors.”
Coalition to Defend Affirmative Action v. Granholm,
501 F.3d 775, 779 (6th Cir. 2007) (quoting Purnell v.
City of Akron, 925 F.2d 941, 950 (6th Cir. 1991)). As
explained below, Attorney General Cameron has
established each of the four elements.
1. Timeliness
To determine the timeliness of an application for
intervention of right, we consider five factors:
1) the point to which the suit has progressed;
2) the purpose for which intervention is sought;
3) the length of time preceding the application

App. 120
during which the proposed intervenors knew or
should have known of their interest in the case;
4) the prejudice to the original parties due to the
proposed intervenors’ failure to promptly
intervene after they knew or reasonably should
have known of their interest in the case; and
5) the existence of unusual circumstances
militating against or in favor of intervention.
Blount-Hill v. Zelman, 636 F.3d 278, 284 (6th Cir.
2011) (quoting Jansen v. City of Cincinnati, 904 F.2d
336, 340 (6th Cir. 1990)). “No one factor is dispositive,
but rather the ‘determination of whether a motion to
intervene is timely should be evaluated in the context
of all relevant circumstances.’” Id. (quoting
Stupak-Thrall v. Glickman, 226 F.3d 467, 472–73 (6th
Cir. 2000). Based on these five factors, Attorney
General Cameron’s motion to intervene is timely.
Regarding the first factor, the parties cited three
cases in which a party sought to intervene after an
appellate panel rendered judgment. In two of the cases,
the Ninth Circuit granted motions to intervene, see
Peruta v. Cty. of San Diego, 824 F.3d 919, 940–41 (9th
Cir. 2016) (en banc); Day Apoliona, 505 F.3d 963, 965
(9th Cir. 2009), and in the other case, the D.C. Circuit
denied such a motion, Amalgamated Transit Union
Intern., AFL-CIO v. Donovan, 771 F.2d 1551, 1552
(D.C. Cir. 1985). This case is more like Peruta and Day
than Donovan. As here, both Peruta and Day involved
the unusual circumstance of a state finding itself with
nobody left in the suit to defend its interests after the
panel ruled. Peruta, 824 F.3d at 941; Day, 505 F.3d at
966. And in both cases, the Ninth Circuit granted

App. 121
intervention to allow the state to finish the appeal by
seeking rehearing or certiorari. Peruta, 824 F.3d at
941; Day, 505 F.3d at 966. In Donovan, by contrast, the
court denied intervention to seek rehearing or
certiorari because Secretary Donovan, a government
official and defendant in the lawsuit, was still actively
litigating the case. Moreover, the intervenor sought to
represent entirely different interests than the
government official. Donovan, 771 F.2d at 1552. That
is not the case here. Secretary Friedlander is no longer
actively litigating the case, and Attorney General
Cameron seeks to represent the same interest that
Secretary Meier and Secretary Friedlander represented
throughout the course of litigation—Kentucky’s
interest in defending its law. This factor weighs heavily
in favor of a finding of timeliness.
As to the second factor, we have previously endorsed
the very purpose for which Attorney General Cameron
seeks to intervene on behalf of the Commonwealth—to
ensure that the validity of a state law is defended to
the conclusion of the remaining appellate process. In
Associated Builders & Contractors, Saginawy Valley
Area Chapter v. Perry, 115 F.3d 386 (6th Cir. 1997),
Michigan’s Attorney General moved to intervene
following final judgment in the district court upon
learning that the state official who was a party would
not seek appellate review in a challenge to a state law.
Id. at 389. The district court denied the motion to
intervene, but we reversed and allowed the Attorney
General to intervene. Id. at 390. That should be the
outcome here as well. As did Michigan’s Attorney
General in Perry, Attorney General Cameron moved to
intervene to defend his state’s interests soon after

App. 122
learning that the state official in the lawsuit would no
longer do so. See id. at 389; see also N.E. Ohio Coal. for
Homeless & Serv. Emps. Int’l Union, Local 1199 v.
Blackwell, 467 F.3d 999, 1008 (6th Cir. 2006) (citation
omitted) (granting a motion to intervene because “the
interests of the Secretary and the State of Ohio
potentially diverge”). Attorney General Cameron’s
motion is essentially to allow his state to substitute its
party representative to defend the constitutionality of
its law, which is precisely what we allowed Michigan’s
Attorney General to do in Perry.
The third factor also points in Attorney General
Cameron’s favor. Attorney General Cameron was very
prompt in intervening after he became aware of his
need to do so. See Sierra Club v. Espy, 18 F.3d 1202,
1206 (5th Cir. 1994) (citation omitted) (holding that the
proper “gauge of promptness is the speed with which
the would-be intervenor acted when it became aware
that its interests would no longer be protected by the
original parties”). Secretary Friedlander communicated
that he would no longer defend H.B. 454 on June 9.
Two days later, Attorney General Cameron filed his
motion to intervene on behalf of the Commonwealth.
He obviously responded in a timely manner to
Secretary Friedlander’s decision. See id. (holding that
a motion to intervene was timely when it was filed 15
days after the would-be intervenor became aware of its
need to intervene); Stallworth v. Monsanto Co., 558
F.2d 257, 267 (5th Cir. 1977) (holding that where
would-be intervenors filed their motion less than one
month after learning of their interest in the case, they
discharged their duty to act quickly).

App. 123
The majority seems to think that Attorney General
Cameron should have anticipated his need to intervene
months ago when he swore his oath of office, because
“there was every reason for the Attorney General’s
office to inquire into and prepare for the Secretary’s
intended course.” But there is no evidence that, prior to
June 9, the Secretary expressed any intention to
Attorney General Cameron not to defend H.B. 454
through the entire appellate process. Quite to the
contrary, Secretary Friedlander retained the Attorney
General’s office to represent him at oral argument in
this case. If the Secretary had privately expressed his
intentions earlier, it would have been strange
indeed—and arguably malpractice—for the Attorney
General to move to intervene based on their privileged
communication regarding the Secretary’s future plans
in this case.
All the more confusing, the majority expects
Attorney General Cameron to have intervened in a case
in which he was already the attorney of record
for a party, representing the interests of the
Commonwealth—the exact same interests that he
seeks to represent now. To top it off,
Secretary Friedlander does not oppose Attorney
General Cameron’s continued representation of the
Commonwealth’s interests. Given these circumstances,
we cannot expect that Attorney General Cameron
should have intervened earlier. See Blount-Hill v.
Zelman, 636 F.3d 278, 287 (6th Cir. 2011) (holding that
“actual or constructive knowledge of their interest in
th[e] litigation” is necessary to trigger awareness of the
need to seek intervention); Midwest Realty Mgmt. Co.
v. City of Beavercreek, 93 F. App’x 782, 788 (6th Cir.

App. 124
2004) (holding that mere “suspicions” are not enough);
Linton by Arnold v. Comm’r of Health and Env’t, State
of Tenn., 973 F.2d 1311, 1318 (6th Cir. 1992)
(recognizing that “the movants had no reason to
intervene in the instant action so long as they believed
that the [Defendant-State] would protect their
interests”). And even if Attorney General Cameron
could have anticipated the need to file a motion to
intervene a few months ago, that does not mean that
we should deny his motion now. Day, 505 F.3d at 965
(“[T]he fact that the State of Hawaii is filing its Motion
now, rather than earlier in the proceedings, does not
cause prejudice to Day and the other plaintiffs, since
the practical result of its intervention—the filing of a
petition for rehearing—would have occurred whenever
the state joined the proceedings.” (citation omitted)).
The fourth factor also weighs in favor of a finding of
timeliness. Plaintiffs will not be prejudiced by Attorney
General Cameron’s intervention on behalf of the
Commonwealth. Secretary Friedlander has not opposed
the Attorney General’s motion, and he seems to have
no problem passing the baton to the Attorney General
to allow him to take control of the litigation. And
although the Attorney General’s intervention on behalf
of the Commonwealth will mean that this litigation will
continue, that does not unfairly prejudice Plaintiffs.
When one brings a constitutional challenge to a state
law, it is reasonable to expect the state to defend that
law through the full appellate process. Furthermore,
Attorney General Cameron is not injecting new issues
into the litigation; he merely seeks a rehearing or
certiorari on the very issues that were decided by our
panel on the merits. The Attorney General is thus

App. 125
simply picking up where Secretary Friedlander left off
(actually, to be more precise, Attorney General
Cameron is picking up where he left off, since he has
always been the attorney of record in this case). See
Peruta, 824 F.3d at 941 (holding that there was no
prejudice in granting the motion to intervene because
doing so “will not create delay by injecting new issues
into the litigation, but instead will ensure that our
determination of an already existing issue is not
insulated from review simply due to the posture of the
parties” (citation omitted)).
The majority asserts that Attorney General
Cameron is seeking to intervene to introduce a “new
third-party standing argument,” and that prejudices
Plaintiffs because they “have had no opportunity to
respond” to that argument. But the third-party
standing argument is hardly a new issue. Defendants
challenged Plaintiffs’ standing at the district court
level, (R. 108 at PageID 104–105), and the dissent from
the panel’s decision was devoted almost entirely to that
issue. Even if the third-party standing issue were
somehow new, granting Attorney General Cameron’s
motion to intervene would only prejudice Plaintiffs if it
could “be said that [he] ignored the litigation or held
back from participation to gain tactical advantage.”
Day, 508 F.3d at 966. There is no evidence of such bad
faith from Attorney General Cameron here. Instead, he
is intervening only because Secretary Friedlander
indicated he would not continue the appeal. If
Secretary Friedlander had fully exercised his rights on
appeal, Plaintiffs would have had to respond to the
third-party standing argument anyway at the en banc
or certiorari stage. See League of Woman Voters of

App. 126
Mich. v. Johnson, 902 F.3d 572, 578 (6th Cir. 2018)
(finding no prejudice and reversing a district court
decision denying a motion to intervene because “the
new issues that would have arisen had the [motion to
intervene been granted] would likely have arisen
anyway during the natural course of litigation”).
Finally, we have an independent obligation to ensure
that we have jurisdiction, so even if Plaintiffs’ standing
were a new issue, it should not be ignored. See Cmty.
First Bank v. Nat’l Credit Union Admin., 41 F.3d 1050,
1053 (6th Cir. 1994) (holding that there is “no authority
for the plaintiffs’ argument that prudential standing
requirements may be [forfeited] by the parties” and
declining to “recogniz[e] a distinction between
prudential and constitutional standing requirements in
this context”).
As to the fourth factor, the highly unusual
circumstances present in this case militate in favor of
intervention. These circumstances include the recent
election of Governor Beshear, the posture of this appeal
at the time that Attorney General Cameron assumed
office, Attorney General Cameron’s role as Secretary
Friedlander’s attorney during the appellate process,
and Attorney General Cameron’s recent discovery that
Secretary Friedlander would no longer defend H.B.
454.
Because each of the five factors weighs in Attorney
General Cameron’s favor, his motion to intervene is
timely.

App. 127
2. The Commonwealth’s Legal Interest in the
Subject Matter of This Case
As to the second element governing intervention of
right, the Commonwealth through Attorney General
Cameron has a substantial legal interest in the subject
matter of this case. “[T]his Circuit ‘has opted for a
rather expansive notion of the interest sufficient to
invoke intervention of right.’” Granholm, 501 F.3d at
780 (quoting Michigan State AFL-CIO v. Miller, 103
F.3d 1240, 1245 (6th Cir. 1997)). We have determined
that the term “‘interest’ is to be construed liberally.”
Bradley v. Milliken, 828 F.2d 1186, 1992 (6th Cir. 1987)
(citing Hatton v. County Bd. of Educ. of Maury County,
Tenn., 422 F.2d 457, 461 (6th Cir. 1970)).
As we recently explained, “[a] state may designate
an agent to represent its interests in court. This is most
commonly the state’s Attorney General.” State by &
through Tenn. Gen. Assembly v. U.S. Dep’t of State, 931
F.3d 499, 515 (6th Cir. 2019). So it is in Kentucky. As
a matter of state law, Attorney General Cameron is the
Commonwealth’s “chief law officer.” KRS 15.020. He
must “enter his appearance in all cases, hearings, and
proceedings . . . and attend to all litigation and legal
business in or out of the state required of him by law,
or in which the Commonwealth has an interest.” Id.
(emphasis added). As the Supreme Court of Kentucky
has recognized, it is a “bedrock principle[]” of Kentucky
law that the Attorney General possesses “broad powers
to initiate and defend actions on behalf of the people of
the Commonwealth.” Commw. ex rel. Conway v.
Thompson, 300 S.W.3d 152, 173 (Ky. 2009). “There is
no question,” Kentucky’s highest court has emphasized,

App. 128
“as to the right of the Attorney General to appear and
be heard in a suit brought by someone else in which the
constitutionality of a statute is involved.” Commw. ex
rel. Hancock v. Paxton, 516 S.W.2d 865, 868 (Ky. 1974).
Attorney General Cameron, on behalf of the
Commonwealth, clearly satisfies the second element to
intervene of right.
The majority’s decision to the contrary contravenes
our precedent. We have held, on multiple occasions,
that states’ attorneys general have the authority to
intervene to defend their states’ laws, even at the
appellate stage. See Perry, 115 F.3d at 390 (noting that
the Michigan Attorney General “has statutory and
common law authority to act on behalf of the people of
the State of Michigan in any cause or matter, such
authority being liberally construed” (citations
omitted)); Blackwell, 467 F.3d at 1009 (noting that the
Ohio State Attorney General could intervene because
he is “the State’s chief legal officer and a representative
of the people and the public interest” (citation
omitted)).
3. The Attorney General’s Ability to Protect the
Commonwealth’s Interests
As to the third and fourth elements, the
Commonwealth’s interests in defending H.B. 454
undoubtedly will be impaired by this litigation and will
not be adequately represented absent intervention.
Indeed, those interests will not be represented at all.
Without intervention, the Commonwealth will be
denied the opportunity to continue defending H.B. 454
in court. The Commonwealth’s only option now is to
seek en banc or certiorari of the denial of the Attorney

App. 129
General’s motion to intervene. Unless the Attorney
General on behalf of the Commonwealth becomes a
party, Secretary Friedlander’s decision not to continue
his appeal will not just “hinder,” but will perhaps be
fatal to “the State’s ability to litigate the validity of the
[Kentucky] law.” Blackwell, 467 F.3d at 1008–09
(citations omitted).
III.
Rule 24 of the Federal Rules of Civil Procedure
instructs that we “must permit anyone to intervene”
who establishes the four elements discussed above.
Fed. R. Civ. P. 24(a) (emphasis added). Each of those
elements weighs decidedly in favor of granting the
motion to intervene. Intervention is particularly
warranted because, without adding the Attorney
General as a party, there will be no one left in the case
to defend H.B. 454.
Finally, our views as to the merits of Plaintiffs’
constitutional challenge and whether they have
standing to sue should not affect our ruling on the
motion to intervene. Regardless of whether the
majority is correct as to resolution of the issues
presented in the case, Plaintiffs are not entitled to a
pass as to an opponent. In our federal system, legal
arguments are to be tested through the fire of
adversarial argument, which includes the full appellate
process. I therefore respectfully dissent.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 130

APPENDIX E
No. 19-5516
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: July 16, 2020]
__________________________________________
EMW WOMEN’S SURGICAL CENTER,
)
P.S.C., ON BEHALF OF ITSELF, ITS
)
STAFF, AND ITS PATIENTS;
)
ASHLEE BERGIN, M.D., M.P.H., ON
)
BEHALF OF HERSELF AND HER
)
PATIENTS; TANYA FRANKLIN, M.D.,
)
M.S.P.H., ON BEHALF OF HERSELF
)
AND HER PATIENTS,
)
)
Plaintiffs-Appellees,
)
)
v.
)
)
ERIC FRIEDLANDER, IN HIS OFFICIAL )
CAPACITY AS ACTING SECRETARY
)
OF KENTUCKY’S CABINET FOR
)
HEALTH AND FAMILY SERVICES,
)
)
Defendant-Appellant,
)
)
THOMAS B. WINE, ET AL.,
)
)
Defendants.
)
__________________________________________)

App. 131
ORDER
BEFORE: MERRITT, CLAY, and BUSH, Circuit
Judges.
Upon consideration of the petition for rehearing en
banc tendered by the Proposed Intervenor Daniel J.
Cameron,
It is ORDERED that the petition is rejected for
filing.
JOHN K. BUSH, Circuit Judge, dissenting. I
would accept the Attorney General’s tendered petition
for rehearing en banc for the reasons stated in my
dissent from the denial of the Attorney General’s
motion to intervene. I also note that, notwithstanding
the Panel’s rejection of his petition today, the Attorney
General may have further recourse in this case should
he decide to pursue it. It appears that he has
independent authority under Kentucky law to file a
petition for certiorari as Secretary Friedlander’s
counsel, despite Governor Beshear’s objections. Cf.
Perdue v. Baker, 586 S.E.2d 606, 610-16 (Ga. 2003)
(holding that the Georgia Attorney General had
independent authority under Georgia law to represent
the State before the U.S. Supreme Court despite the
Governor’s objections). As I noted in my earlier dissent,
Attorney General Cameron has broad, independent
authority under Kentucky state law to defend the
Commonwealth’s statutes. He must “enter his
appearance in all cases, hearings, and proceedings . . .
and attend to all litigation and legal business in or out
of the state required of him by law, or in which the

App. 132
Commonwealth has an interest.” KRS 15.020. The
Supreme Court of Kentucky has recognized that it is a
“bedrock principle[]” of Kentucky law that the Attorney
General possesses “broad powers to initiate and defend
actions on behalf of the people of the Commonwealth.”
Commw. ex rel. Conway v. Thompson, 300 S.W.3d 152,
173 (Ky. 2009). “There is no question,” Kentucky’s
highest court has emphasized, “as to the right of the
Attorney General to appear and be heard in a suit
brought by someone else in which the constitutionality
of a statute is involved.” Commw. ex rel. Hancock v.
Paxton, 516 S.W.2d 865, 868 (Ky. 1974). Because
Attorney General Cameron appears to have
independent authority under Kentucky law to file a
petition for certiorari as Secretary Friedlander’s
counsel, this case need not be over quite yet.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 133

APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No: 19-5516
[Filed: August 03, 2020]
__________________________________________
EMW WOMEN’S SURGICAL CENTER,
)
P.S.C., on behalf of itself, its staff, and its
)
patients; ASHLEE BERGIN, M.D., M.P.H. )
and TANYA FRANKLIN, MD, M.S.P.H., on )
behalf of themselves and their patients
)
)
Plaintiffs - Appellees
)
)
v.
)
)
ERIC FRIEDLANDER, in his official
)
capacity as Acting Secretary of Kentucky’s )
Cabinet for Health and Family Services
)
)
Defendant - Appellant
)
)
and
)
)
THOMAS B. WINE, et al
)
)
Defendants
)
__________________________________________)

App. 134
MANDATE
Pursuant to the court’s disposition that was filed
06/02/2020 the mandate for this case hereby issues
today.

COSTS: None

App. 135

APPENDIX G
311.787 Prohibit certain abortion procedures
when the probable post-fertilization age of the
unborn child is 11 weeks or greater, except in
the case of a medical emergency -- Penalty not
to apply to pregnant woman -- Class D felony.
(1)

As used in this section:
(a)

“Bodily dismemberment, crushing, or
human vivisection” means a procedure in
which a person, with the purpose of
causing the death of an unborn child,
dismembers the living unborn child and
extracts portions, pieces, or limbs of the
unborn child from the uterus through the
use of clamps, grasping forceps, tongs,
scissors, or a similar instrument that,
through the convergence of two (2) rigid
levers, slices, crushes, or grasps, or
performs any combination of those actions
on, any portion, piece, or limb of the
unborn child’s body to cut or separate the
portion, piece, or limb from the body. The
term includes a procedure that is used to
cause the death of an unborn child and in
which suction is subsequently used to
extract portions, pieces, or limbs of the
unborn child after the unborn child’s
death;

App. 136

(2)

(b)

“Medical emergency” has the same
meaning as in KRS 311.720;

(c)

“Probable post-fertilization age” has the
same meaning as in KRS 311.781; and

(d)

“Unborn child” has the same meaning as
in KRS 311.781.

No person shall intentionally perform or induce
or attempt to perform or induce an abortion on
a pregnant woman:
(a)

That will result in the bodily
dismemberment, crushing, or human
vivisection of the unborn child; and

(b)

When the probable post-fertilization age
of the unborn child is eleven (11) weeks or
greater;

except in the case of a medical emergency.
(3)

A pregnant woman on whom an abortion is
performed or induced or attempted to be
performed or induced in violation of subsection
(2) of this section is not guilty of violating
subsection (2) of this section or of attempting to
commit, conspiring to commit, or complicity in
committing a violation of subsection (2) of this
section.
Effective:

April 10, 2018

History:

Created 2018 Ky. Acts ch. 142,
sec. 1, effective April 10, 2018.

